<html>
<title> - DEPARTMENT OF HOMELAND SECURITY'S BUDGET SUBMISSION FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-555]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-555

  DEPARTMENT OF HOMELAND SECURITY'S BUDGET SUBMISSION FOR FISCAL YEAR 
                                  2005

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 9, 2004

                               __________

      Printed for the use of the Committee on Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
92-688                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas

           Michael D. Bopp, Staff Director and Chief Counsel
              Tim Raducha-Grace, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                   Holly A. Idelson, Minority Counsel
                      Amy B. Newhouse, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Levin................................................     5
    Senator Akaka................................................    15
    Senator Durbin...............................................    18
    Senator Pryor................................................    19
    Senator Sununu...............................................    28

                                WITNESS
                        Monday, February 9, 2004

Hon. Tom Ridge, Secretary, U.S. Department of Homeland Security:
    Testimony....................................................    20
    Prepared Statement...........................................    47

                                APPENDIX

Questions and Responses submitted for the Record for Secretary 
  Ridge from:
    Senator Sununu...............................................    55
    Senator Collins..............................................    56
    Senator Carper...............................................    60
    Senator Fitzgerald...........................................    66
    Senator Bennett..............................................    78
    Senator Akaka................................................    95
    Senator Lautenberg...........................................   106
    Senator Lieberman............................................   108
    Senator Specter..............................................   146

 
  DEPARTMENT OF HOMELAND SECURITY'S BUDGET SUBMISSION FOR FISCAL YEAR 
                                  2005

                              ----------                              


                        MONDAY, FEBRUARY 9, 2004

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Lieberman, Levin, Akaka, Durbin, 
Pryor, and Sununu.

              OPENING STATEMENT OF SENATOR COLLINS

    Chairman Collins. The Committee will come to order.
    Good morning. I want to begin by welcoming Secretary Ridge 
here this morning and thank him for making his third appearance 
before the Committee on Governmental Affairs.
    I also want to welcome back to the Committee our friend and 
colleague, the Committee's Ranking Democrat, Senator Joseph 
Lieberman. Joe, we have missed you greatly in the last few 
months and we are very glad to have you back. I personally 
believe that your philosophy resonates with a broad range of 
politically moderate Americans (which would of made you a 
formidable force in the general election). For that reason, I 
am really glad to have you back. It is a great pleasure to 
again have you back at my side.
    Senator Lieberman. Thank you very much.
    Chairman Collins. It has been nearly 2\1/2\ years since an 
unconscionable act of war was committed against the United 
States. The American people responded to the attacks of 
September 11 with courage, courage that was evident that 
horrible day in the heroic actions of the passengers on Flight 
93, in the firefighters and police officers at Ground Zero, and 
in the Pentagon employees who led their co-workers to safety 
through fire, smoke, and rubble.
    That courage is also evident today in the men and women of 
our Armed Forces who are serving on the front lines in the war 
on terrorism and in the ordinary Americans across the country 
who carry on normal, productive lives, refusing to be 
terrorized by terrorism.
    The Federal Government responded by recognizing that this 
was a different kind of war with a different kind of enemy. We 
saw that this enemy used as a weapon the freedom and openness 
that Americans cherish but that it despises. We realize that 
our efforts to defend our Nation against this unconventional 
enemy were hampered by a lack of a unified strategy. To revisit 
a phrase that was used so often in the aftermath of September 
11, we were not connecting the dots. Turf battles, 
communication gaps, and interagency rivalries could no longer 
be tolerated. The stakes are simply too high.
    The Department of Homeland Security whose budget we review 
here today is the single greatest manifestation of our efforts 
to create that unified strategy, to connect those dots, to 
coordinate an urgent new mission. This Committee played a key 
role in creating the Department. Indeed, we marked up and 
reported the authorizing legislation.
    Having created the Department, we have also endeavored to 
help it succeed. We have confirmed eight highly talented and 
dedicated individuals, most notably the Secretary, who are 
leading the Department. We have conducted hearings and 
investigations on a wide range of homeland security issues, 
from the President's plan to better coordinate intelligence 
analysts and sharing, to unraveling the tangles of 
international terrorism financing, to protecting American 
agriculture from sabotage, to securing our vulnerable seaports. 
We have approved bills to reform the Department's multi-billion 
dollar State grant program, to provide cutting-edge technology 
to first responders, to help the Department attract the 
talented individuals it needs with sought-after skills, and to 
ensure accountability within DHS's financial system.
    The Department is now nearing the completion of its first 
year. Therefore, this budget is the first that can be reviewed 
in the context of actual performance and accomplishments. This 
Committee is its first stop on Capitol Hill. Indeed, the 
Secretary told me that he anticipates testifying some six times 
on the administration's budget.
    I am pleased to note that under Secretary Ridge's dedicated 
leadership there have been many significant accomplishments. 
The melding of 22 Federal agencies with more than 170,000 
employees has occurred with some of the resistance that we 
expected, but without the widespread turf battles that many 
predicted. The level of cooperation and coordination within 
this new Department, although certainly not perfect, is a vast 
improvement over the previous ad hoc structure. The initial 
focus on airport security has been expanded to include other 
vulnerabilities such as seaport security. Our first 
responders--the local and State emergency personnel on the 
front lines--are getting more funding, training, and guidance 
than ever before to carry out their vital missions.
    Of course, there are some concerns. While our first 
responders have received more resources, the administration's 
budget includes a considerable cut in the basic State Homeland 
Security Grant Program. In addition, our States, communities, 
and first responders need a streamlined grant process that 
includes greater flexibility in how they can use Federal 
resources. While resource capabilities have improved, 
prevention lags. Advanced counterterrorism technologies have 
yet to reach the front lines in most cases.
    While the addition of personnel at our ports of entry have 
brought us greater security at our borders, many smaller border 
communities in my State face new restrictions that have 
tremendously disrupted their day-to-day lives. And while our 
urban areas are receiving unprecedented Federal assistance, the 
concerns and vulnerabilities of our small cities, small towns, 
and small States must not be overlooked. Perhaps more than any 
other area this one gets shortchanged in the administration's 
budget.
    As the Department pursues programs to make our country more 
secure it is inevitable that a tension will arise between 
security and privacy. Americans treasure their civil liberties 
and expect their government to protect them wherever possible. 
Where privacy must be compromised in order to prevent 
terrorism, the government has an obligation to tell the 
American people clearly what information it is gathering and 
why it is necessary.
    I am concerned about revelations that two airlines turned 
over passenger information to government agencies without any 
public notice or privacy safeguards. We simply cannot gain 
security if we lose trust. As the Department of Homeland 
Security develops its new passenger prescreening program, CAPS-
II, it must be open and forthright with the American people so 
that we can determine whether the added security is worth the 
privacy costs. Programs such as this one must be crafted with 
care to minimize the impact on personal privacy and must be 
subject to close Congressional scrutiny. I know that the 
Department shares that goal.
    The Department of Homeland Security's budget that we are 
examining today makes substantial investments in areas that are 
critical to our Nation's safety. I cannot say that I agree with 
each and every detail of the budget, particularly in the area 
of grants to States, communities and first responders, the 
Coast Guard, and port security. But I want to commend the 
Secretary for making tough choices in a lean budget year. I 
also want to recognize that when one looks at the President's 
budget overall that homeland security has clearly been made a 
top priority.
    The war on terrorism is a different kind of war. We are 
proceeding to blaze a path in uncharted territory, making 
mistakes, getting a little lost, but then finding our way and 
making significant progress. I appreciate the difficulty of the 
mission assigned to the Department and I know that its 
leadership is committed to accomplishing that urgent mission 
without sacrificing the freedom and the openness our enemy 
seeks to destroy.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you, Madam Chairman. May I say 
thank you first, for your characteristically gracious welcome. 
It is good to be back. I consider myself very fortunate to have 
had the opportunity I have had over the last year to be a 
presidential candidate and to take an extraordinary journey 
around this country. I learned a lot, including about the 
public's concern about homeland security, and I hope that will 
enable me to contribute even more constructively, hopefully, to 
these debates.
    I cannot think of a better place to begin my reentry full-
time to the Senate than at this Committee with you and my 
colleagues, or a better place than with you, Mr. Secretary, on 
this particular topic which is so critical to all that we are 
committed to doing here. I thank you very much again, Madam 
Chairman, for the good work you have been doing and for your 
very kind welcome back.
    The fact is that we do meet here today with fresh evidence 
of the urgent need to secure our homeland. Last week 
information gathered by intelligence services prompted the 
cancellation of several international flights to the United 
States. Deadly ricin was discovered in this building, right 
here in this building in Senator Frist's office. Obviously, we 
do not yet know the full implications of these incidents but we 
clearly do know more than enough to conclude that our Nation 
faces an array of threats from terrorists bent on doing 
terrible damage to us, and that we are still too vulnerable to 
their evil intentions.
    A number of independent, nonpartisan expert commissions 
have sounded the alarm about our lack of adequate preparedness, 
and I am sure we are all concerned about the critical 
vulnerabilities that have yet to be adequately addressed.
    Mr. Secretary, I believe that you have been given 
insufficient resources to do the job the Homeland Security Act 
requires you to do. The administration's fiscal year 2005 
budget, which includes a stunning 30 percent cut government-
wide for first responders, is the latest alarming evidence of 
shortchanging the homeland side of the war against terrorism. 
Our government and our Nation are still dangerously unprepared, 
as our former colleague Warren Rudman has said, to face the 
ongoing and very real threats of terrorism. We need far more 
funded and focused leadership to secure our domestic defenses 
and to fulfill the promise, the full promise, of the Homeland 
Security Act.
    Have we made any progress in securing our homeland in the 
last year? Of course we have, and it is significant. We are 
surely safer now with the Department of Homeland Security than 
we were without it. We are certainly more aware of the threats 
we face and we now have a focal point for planning, 
implementing, and assessing our homeland security efforts.
    We have improved airport and airline security. We have 
begun to look more critically at the millions of containers 
that enter our ports from abroad, including pushing the borders 
back to help secure containers before they reach American 
shores. We have begun to consolidate homeland defense work 
under one roof, and that is the agencies involved in homeland 
defense at the borders and elsewhere. And in science and 
technology we are starting to bring a new research and 
development agency to counter terrorists' threats into 
existence, although it still faces bureaucratic and funding 
constraints.
    But we are clearly not as safe as we hoped we would be by 
now, more than 2 years after September 11 and a year after the 
Department was created. We are still without a strategy, an 
overall strategy as the Gilmore Commission pointed out, that 
sets priorities and deadlines for homeland security efforts and 
clearly allocates responsibilities among Federal agencies, 
State and local governments, and the private sector. The 
Homeland Security Act called for a robust intelligence fusion 
center within the Department of Homeland Security, but the 
administration created a separate threat center that I fear is 
without a clear home and stable funding and which does not 
truly break down the turf barriers among intelligence agencies.
    The Homeland Security Act was intended to bring new 
leadership to transportation and port security, critical 
infrastructure protection, and bioterrorism preparedness. Yet 
the Federal effort in each of these areas remains incomplete 
and in some cases confused. The Homeland Security Act was meant 
to provide adequate support to State and local governments and 
first responders. Here, too, the promise has not yet been kept 
as our vital State and local partners struggle to find the 
resources and guidance they need from the Federal Government.
    Senator Collins has mentioned the three areas that I want 
to focus on myself and any concerned about shortchanging in the 
budget proposal of the administration, and that is to say, 
support for first responders, support for the preparedness, 
response, and prevention of bioterrorist acts, and port and 
container security, particularly the underfunding of the Coast 
Guard.
    So I would say that we have a long way to go yet before we 
fulfill the promise we made to the American people, in those 
dark days following the September 11 terrorist attacks, to 
adequately secure our homeland. But I do want to stress that in 
my opinion these debates and discussions, even disagreements we 
have, are not and ought not to become partisan. They are 
disagreements of policy and priorities and in some cases of 
funding, in many cases of funding allocations. The fact is that 
we ought to aspire to achieve the same standard of non-
partisanship in matters of homeland security that at our best 
we have achieved in matters of international security.
    I certainly return to the Senate full-time with a 
commitment, Mr. Secretary, to work with you on that. The fact 
is that--with the creation of the Department and the 
appointment of Governor Ridge as Secretary--we have something 
very important, a new reality, which is an authorized and 
accountable member of the President's Cabinet, with whom 
Members of Congress and the public can discuss these critical 
matters. I look forward to doing so with you today and in the 
months ahead, Mr. Secretary, with the aim of achieving the 
goals that I know we have. I know that you agree with all of us 
that we have no more urgent priority in fulfilling our 
constitutional responsibilities to provide for the common 
defense and ensure domestic tranquility than to secure our 
homeland and the American people from terrorist attacks. Thank 
you very much.
    Chairman Collins. Thank you, Senator. Senator Sununu.
    Senator Sununu. Thank you, Madam Chair. I will defer to the 
Secretary and submit any formal testimony to the record.
    Chairman Collins. Thank you. Senator Levin

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Madam Chairman, I will be very brief. First 
let me join you in welcoming back Senator Lieberman. In 
addition to supporting your comments, let me say that it was 
really in this room that Senator Lieberman was one of the key 
legislative creators of the Homeland Security Department. His 
initiative led to the very creation of the Department which 
Secretary Ridge leads and you literally would not be here today 
but for the fact that Senator Lieberman and a few others, but 
mainly Senator Lieberman, took the lead in creating a 
critically important department and in pulling together all of 
the departments, or most of them that are involved in 
protecting our homeland.
    I also want to thank you, Secretary Ridge, for your visit 
to Michigan. You visited a community which is one of those 
smaller towns, or smaller cities perhaps more accurately, and 
one of our counties which fit into the category which our 
Chairman talked about. Our grant programs do not adequately 
address the vulnerabilities that some of those communities at 
least have, particularly the one in Port Huron and St. Clair 
County that you visited. We are very appreciative of that 
visit. It made a great difference to them and I think will have 
an impact on the design overall of programs as you go along.
    I also am deeply concerned about the cuts in the programs. 
There is an $800 million proposed cut in this budget for the 
Office of Domestic Preparedness. Further, our principal first 
responder program, the State Homeland Security Grant Program 
will be cut by almost $1 billion. That is deeply troubling. The 
Firefighter Assistance Grant Program is proposed for a 33 
percent cut from the fiscal 2004 levels. I do not think that is 
anywhere near acceptable given the needs and the commitments 
which we made to our firefighters after September 11.
    We also have to address the significant border problems 
that we have in this country, including the containers that 
come in and, Mr. Secretary, I know you are familiar with those 
nationwide and you saw firsthand the existence of those issues 
in my home State of Michigan.
    I want to just focus quickly on two other issues. One is 
the need that we have, and Senator Lieberman mentioned this, to 
define the roles of our intelligence organizations, ones that 
analyze our intelligence. We have a number of entities that are 
involved in the analysis of intelligence. We have the Terrorist 
Threat Integration Center, we have a Counterterrorism Center at 
the CIA, we have the Department of Homeland Security's 
Information Analysis and Infrastructure Protection Directorate, 
we have one in the FBI.
    Senator Collins and I wrote Director Mueller, you Secretary 
Ridge, the Director of the Terrorist Threat Integration Center 
at the CIA Mr. Brennan, and the head of the CIA Mr. Tenet about 
these four entities that exist that relate and are supposed to 
be putting together in one place the information that we have 
relative to terrorist threats. We cannot divide, diffuse, 
confuse the responsibility of our key counterterrorism 
agencies. It has got to be located in one place. We have a 
whole commission now, the September 11 commission, that is 
looking at the failures of intelligence analysis prior to 
September 11.
    Senator Collins and I have asked in this October 30 letter 
again, this is now a year after the first request that we made, 
for a statement as to what are the responsibilities of those 
four agencies, to avoid any overlap, any confusion, any kind of 
uncertainty as to who has the principal responsibility for 
analyzing terrorist threats, the intelligence relating to 
terrorists threats. We have to eliminate those turf barriers 
that exist that Senator Lieberman referred to. We have still 
not received a response to that October 30 letter. You were 
only one of the addressees and I would ask again that you 
accomplish that with your colleagues in the CIA and at the FBI.
    I would ask that the balance of my statement, Madam 
Chairman, be placed in the record.
    [The prepared opening statement of Senator Levin with 
attachments follows:]

              PREPARED OPENING STATEMENT OF SENATOR LEVIN

    Thank you very much Madam Chairman. I join you in welcoming 
Secretary Ridge once again to testify before this Committee and want to 
thank the Secretary for taking the time a few weeks ago to travel to 
Michigan and see first hand some of the unique homeland security 
challenges facing St. Clair County and Port Huron. I commend the 
Secretary for his commitment to strengthening our homeland security 
efforts and improving the programs that fund our domestic preparedness 
and response capabilities, protect our borders and ports and improve 
our transportation security.
    Maintaining an adequate level of funding for first responders is 
critical to protecting our country from a terrorist attack and ensuring 
that we are able to adequately respond should such an attack occur. I 
am concerned about how this budget treats those on the front lines of 
our battle against terrorism, our first responders. Under this proposed 
budget for Fiscal Year 2005, the Office for Domestic Preparedness 
(ODP), which administers grant programs to assist State and local first 
responders, will receive $800 million less than it receive din FY04. 
One of the biggest ODP grant programs, the State Homeland Security 
Grant Program, will be cut by $1 billion. We cannot shortchange our 
first responders by cutting this vital funding and I will work with my 
colleagues to restore it.
    While I am disappointed by these funding levels, I am pleased that 
the Department of Homeland Security appears to be moving away from the 
current small state funding formula. For example, using the .75 percent 
base for State Homeland Security Grant Program grants in FY 2004, Texas 
will received $4.04 per capita, whereas Wyoming will receive $28.72 per 
capita. The result is that while Texas has 42 times the population of 
Wyoming, it receives approximately one seventh of what Wyoming receives 
per capita. The consequence of the current .75 percent formula is that 
states with smaller populations receive far more, per capita, than more 
populated states, regardless of vulnerability of infrastructure or 
threat.
    I am also concerned that this budget provides no funds for grants 
to enhance interoperability, even though ti remains one of the top 
priorities of our first responders, and cuts funding for the Emergency 
Management Performance Grant (EMPG) program by $10 million. Further, 
under this proposed budget, funding for the Firefighter Assistance 
Grant program is cut by $250 million, or 33 percent, from FY04 levels. 
This grant program was created by Congress in order to meet the basic, 
critical needs of the firefighting community. Thousands of firefighting 
personnel in Michigan and throughout the country rely on the Assistance 
to Firefighters Grant Program for the training, firefighting equipment, 
protective gear, and prevention programs that keep our citizens safe. 
Some of our fire departments in Michigan have to work with old and 
inefficient equipment such as corroding fire trucks with mechanical 
problems, and old water tanks unable to maintain necessary pressure 
levels to fight fires. Under the Administration's proposal, funding may 
not be available to these fire departments for their basic firefighting 
needs.
    The DHS budget proposal notes that allocating grant funds within 
the Department will be coordinated with relevant preparedness programs 
in the Department of Justice. However, that Department has also cut 
funding for our first responders. The President's budget proposes 
massive cuts to local law enforcement programs that, if enacted, would 
severely compromise the safety of communities around the country. Not 
only are cops on the beat essential for maintaining community safety, 
but they are the first line of defense against potential terrorist 
attacks. The President's budget proposes a more than $650 million cut 
in funding for the COPS program, including a 100 percent cut in the 
COPS hiring program that helps local law enforcement meet demands for 
additional officers. On top of the COPS cuts, the President's budget 
eliminates funding for the local law enforcement block grant program 
(FY 2004 $235 million) and the Byrne grant program (FY 2004 $674 
million). All of these programs provide vital funding to our first 
responders and it puzzles me as to why they would be diminished at a 
time when we are at an increased threat level.
    Another issue that we need to address is our border protection. 
Southeast Michigan is home to five international border crossings. More 
than 40 percent of all U.S./Canada trade passes through Michigan/
Ontario borders. The Ambassador Bridge is the busiest commercial 
crossing in North America and the Detroit-Windsor Tunnel is the busiest 
passenger vehicle tunnel on the northern border. The bridge facilitates 
approximately 25 percent of all trade between the U.S. and Canada. In 
2003, there were over 3 million vehicle traffic crossings at the 
Ambassador Bridge--total value of goods ranging from $120-$130 billion. 
It is a most critical instrument in facilitating the U.S./Canadian 
Trade Agreement. Unnecessary and lengthy delays have seriously impacted 
our economic stability on both sides of the bridge. Effective and 
secure functioning at this border crossing must be a priority 
consideration for this committee. We have seen improved and more secure 
commercial traffic flow at the Ambassador Bridge with the increased 
numbers of inspectors at our northern borders and with the 
implementation of NEXUS and FAST, two advanced technology and effective 
pre-screening programs. While border staffing levels have increased at 
our northern border crossings, increased border security requirements 
will add to longer processing times and additional staffing is needed. 
Our economy, which is increasingly dependent on just in time delivery, 
cannot afford delays at our borders.
    Reverse inspections is a critical component of securing our port 
and bridge. Vehicles should not be allowed to enter the bridge without 
having cleared cargo inspections reducing potential for a terrorist act 
which would destroy the bridge and severely impact the economy of both 
the U.S. and Canada. The Legislation which calls for a pilot program on 
reverse inspections was passed in 2003, however it has not yet been put 
in place. If the Administration is serious about homeland security, it 
should implement reverse inspection without delay.
    I am also concerned that the Department of Homeland Security has 
not yet reported to Congress on the plan for consolidating and co-
locating Department of Homeland Security regional offices. Section 706 
of the Homeland Security Act requires DHS to submit a consolidation 
plan to Congress no later than one year after the enactment of the Act 
(which was November 25, 2003). These decisions by DHS will impact my 
home state of Michigan because we are asking DHS to consider locating a 
first responder training facility, as well as a regional headquarters 
for DHS, in Michigan. As the Secretary is aware, two Michigan National 
Guard facilities, the Alpena Combat Readiness Training Center (CRTC) 
and Camp Grayling, are ideally suited to serve together as a training 
center for first responders. These state-of-the-art facilities 
currently train members of the active duty military, National Guard and 
first responders. Annually thousands of individuals from throughout the 
nation train at Alpena CRTC and Camp Grayling. For decades these sites 
have worked to expand their capacity and hone their training 
techniques. These investments have led to the creation of world class 
training facilities that would be ideally suited for training DHS staff 
and first responders from throughout the nation. In addition, Selfridge 
Air National Guard Base is being considered as a regional headquarters 
for DHS. This world class facility which currently is home to all five 
branches of our nation's military as well as FAA and Customs officials, 
would be ideally suited for such a purpose. I would urge the Department 
to complete this plan as soon as possible, and clarify its intent about 
working with Congress on these matters, so that we can begin to plan 
where these regional training centers will be located.
    I would also like to briefly discuss the intelligence analysis 
mechanisms and strategies that exist within the Department of Homeland 
Security and outside of it. We all agree that intelligence is crucial 
to our national security. As we have seen, intelligence decisions can 
alter our country's political course. Because of that, it is absolutely 
essential for us to do everything in our power to ensure that our 
intelligence is credible. Over the last two years, many of us have been 
asking questions about the Administration's intelligence gathering 
capabilities and responsibilities. We have not received satisfactory 
answers to those questions. As I see it, part of the problem stems from 
the fact that our intelligence analysis has multiple branches, 
including the Terrorist Threat Integration Center (TTIC), the CIA's 
Counter Terrorism Center (CTC) and the Department of Homeland 
Security's Information Analysis and Infrastructure Protection 
Directorate. Although I have been asking for over a year, the 
Administration has yet to define how these three intelligence entities 
are duplicating one another or complementing one another. It is the 
responsibility of our current Administration to define the roles of the 
intelligence organizations. If the Administration cannot define the 
purposes of these entities, how can the people working at these 
agencies understand communication protocol and agency purpose and 
mission? Why should we feel safe when the employees and agencies tasked 
with gathering and disseminating intelligence are not entirely sure 
what they should be doing and to whom they should be talking? Chairman 
Collins and I wrote to the CIA last year asking for a comprehensive 
description of these three entitles. The explanation we received was 
completely unsatisfactory, so we wrote again to the DHS, CIA, and TTIC 
and requested an answer by November of last year. We are still waiting 
for a response. I would like to submit the correspondence pertaining to 
this subject into the record.
    I look forward to discussing all of these issues in greater detail. 
I have outlined the general issues that I hope you will address. I 
realize that there are a lot of challenges facing the Department, 
however providing our first responders with the training and equipment 
they need must remain one of our highest priorities. I look forward to 
working with you and your staff on these very important issues.

[GRAPHIC] [TIFF OMITTED] T2688.001

[GRAPHIC] [TIFF OMITTED] T2688.002

[GRAPHIC] [TIFF OMITTED] T2688.003

[GRAPHIC] [TIFF OMITTED] T2688.004

[GRAPHIC] [TIFF OMITTED] T2688.005

[GRAPHIC] [TIFF OMITTED] T2688.006

    Chairman Collins. Thank you, Senator. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman. 
Secretary Ridge, it is a real pleasure to have you before us 
today. There was never any doubt in my mind as to how hard it 
would be to create a new agency, but I want you to know that I 
saw you as the right person for the job.
    Secretary Ridge. Thank you, Senator
    Senator Akaka. I have a longer statement, Madam Chairman, 
and I ask that it be made part of the record.
    Chairman Collins. Without objection.
    [The prepared opening statement of Senator Akaka follows:]

              PREPARED OPENING STATEMENT OF SENATOR AKAKA

    Thank you Madam Chairman. Secretary Ridge, it is a pleasure to have 
you before us once again. There was never any doubt as to how hard it 
would be to create a new agency, but I saw you as the right person for 
this job.
    Today you may hear me focus on the problems of this new department, 
on my perception that the glass is less than half full, but I want you 
to know that I still believe that you are the right man for this 
difficult task.
    When the Department of Homeland Security (DHS) was created, we knew 
it would take time to meld so many previously independent or otherwise 
affiliated agencies, bureaus, and offices into a single unit. But, all 
of us were also aware of the importance of quickly ensuring that these 
newly merged component parts operate as one cohesive and effective 
system to protect our country.
    The urgency of achieving that end-state has not diminished and, in 
fact, becomes more acute with each passing day. And yet, Mr. Secretary, 
the Committee hears that DHS coordination and operation efficiency is 
hampered by functional and cultural differences, and it appears to me 
that the administration's budget proposal fails to provide sufficient 
funds to implement critical functions of the Department.
    The President's budget calls for $47.4 billion for the Department, 
of which 32 percent is for non-homeland security activities. While the 
main mission of the Department is to fight and deter attacks against 
the nation, the legacy agencies transferred to DHS have many non-
homeland security missions that Americans rely upon and which remain 
integral to the agencies' functional capabilities. We must make sure 
that these non-homeland security missions and functions are not short-
changed.
    For example, items identified as non-homeland security programs 
include first responder grants, disaster mitigation, firefighter 
grants, the disaster assistance direct loan program, mitigation grants, 
flood map modernization, the radiological emergency preparedness 
program, and emergency management performance grants.
    From the President's budget, it appears that the designation of a 
program as either homeland security or non-homeland security is 
critical to the amount of funding a program receives. Yet, it is 
unclear why or how the Department designated some as security-related 
and others not.
    I am also concerned about the level of support being provided to 
the states. For example, states are facing critical challenges in 
making communications interoperable, yet SAFECOM, which provides public 
safety agencies the guidance to achieve interoperable communications, 
does not have a specific funding level in the budget. States face 
funding shortfalls to secure seaports, yet the budget does not include 
funding for port security grants.
    The proposed budget cuts funding for non-intrusive detection 
technology, technical assistance with emergency response planning, and 
first responder training.
    In addition, in some areas, budget reductions seem to be 
responsible for delaying critical preparedness programs. For example, 
there are a series of goals under Emergency Preparedness and Response 
that list FY 2009 as their target completion date. These include 
requiring that all state, tribal, and county jurisdictions complete 
self-assessments of their ability to recover from terrorist attacks or 
other disasters. These assessments should not take so long to complete, 
but the National Emergency Management Baseline Capability Assessment 
Program has been cut by $227 million.
    The President's budget request falls short of protecting homeland 
security for all states. Formula grant funding, which protects smaller 
states, has been reduced in the budget request by 59 percent. The 
President's request eliminates minimum funding levels established by 
Congress to protect smaller states. Instead, the budget request 
requires that formula based grants be allocated according to 
population, critical infrastructure, and other factors determined by 
the Secretary. This proposal threatens to harm all states by 
structurally changing homeland security grant funding according to a 
yet to be determined formula.
    Critical to the integration and smooth functioning of the 
Department is the new human resources system, which is currently being 
developed. DHS, along with the Department of Defense, is part of the 
most massive transformation of government since 1947. I am concerned 
that this is occurring without sufficient funding to maintain these new 
personnel systems and without rationalizing agency missions to 
personnel needs. In the 1990s, agency staffing was cut without giving 
sufficient consideration to what employees do. The present 
administration is cutting agency budgets without knowing what agencies 
do, forcing these agencies to do more with less, and imposing rigid 
performance rules without credible transparent and accountable systems 
in place.
    We must ensure that agencies have the funding necessary to manage 
their workforce effectively--including funding for overall management 
training, bonuses, and other recruitment and retention programs, such 
as student loan repayment programs.
    As I review the President's budget submission, I am disturbed by 
what appears to be a trend in cuts to human capital and management 
functions. The Department is requesting $133.5 million for a new human 
resource system, declaring it to be an investment in human capital, 
while at the same time making cuts in human captial areas that are 
essential to the long term security of our nation. For example, the 
Science and Technology Directorate has cut its FY05 funding for 
university and fellowship programs by $38.8 million. This could lead to 
a less prepared future work force if fewer new people are being trained 
and recruited through these programs.
    It is important that DHS remain committed to developing and 
maintaining the most innovative and skilled technical staff possible. 
The United States should lead the world in the development of 
technology and science applications to thwart terrorism both 
domestically and internationally. I am concerned that budget cuts to a 
program, like the university and fellowship programs, may undermine our 
ability to recruit and train new Federal workers in these critical 
areas.
    The Department may be robbing Peter to pay Paul. An example is in 
the Information Analysis and Infrastructure Protection Directorate 
where a net increase in the number of intelligence analysts has been 
accomplished by reducing the number of policy and program professional 
staff by eleven. Perhaps this is a change in name only, but my concern 
is that a large reduction in policy and program analysts could led to 
the development of technical programs that are not well-coordinated or 
well-thought out.
    DHS should be mindful of the effect of cutting a disproportionate 
number of policy and program professional staff. I am concerned that 
these actions could lead to the development of technical programs that 
are not well-coordinated or to the failure to develop needed programs.
    Steps should be taken to ensure that the loss of these positions in 
the Information Analysis and Infrastructure Protection Directorate does 
not interfere with the very important mission of assessing threats and 
providing coordinated recommendations for a response.
    There also needs to be significant funding for some of the critical 
management functions, including the internal oversight mechanisms, such 
as the Inspector General, the Privacy Officer, and the Civil Rights and 
Civil Liberties Office, that were put in place by the Congress to 
ensure that we do not erode our liberties and freedoms when fighting 
terrorism. Moreover, the Secretary's office contains the responsibility 
under the Chief Information Officer to develop a comprehensive data 
management plan essential for first responders. But, to date, the 
Department has been unable to acquire the geospatial data, such as 
critical infrastructure, street mapping, first responder locations, and 
government facilities, necessary to build a repository of information 
which could be shared throughout the Department and with state and 
local governments. Failure to achieve this common information database 
hampers prevention and planning for emergency response and recovery 
operations.
    Last week the Senate had to close its offices because of a poison 
attack. Fortunately no one was injured. However, the attack illustrated 
the continuing vulnerability of our society to such dangers and should 
be a wake-up call to all of us that time is not on our side. It 
sometimes appears to me that more attention and more money is being 
devoted to developing a new personnel system in the Department of 
Homeland Security than to providing grants to states and developing the 
technologies that first responders will soon need against threats they 
cannot anticipate.
    Madam Chairman thank you again for holding this hearing and thank 
you, Mr. Secretary, for being here. I look forward to your testimony 
and responses to our questions.

    Senator Akaka. I will just say now that when the Department 
of Homeland Security was created we knew it would take time to 
meld so many previously independent or otherwise affiliated 
agencies, bureaus, and offices into a single unit. But we were 
also aware of the importance of quickly ensuring that these 
newly merged component parts operate as one cohesive and 
effective system to protect our country.
    The urgency of achieving that end state has not diminished, 
and in fact becomes more acute with each passing day. Yet, Mr. 
Secretary, the Committee hears that DHS coordination and 
operation efficiency is hampered by functional and cultural 
differences and it appears to me that the administration budget 
proposal fails to provide sufficient funds to implement 
critical functions of the Department.
    The President's budget calls for $47.4 billion for the 
Department of which 32 percent is for Non-Homeland security 
activities. While the main mission of the Department is to 
fight and deter attacks against the Nation, the legacy agencies 
transferred to DHS have many non-homeland security missions 
that Americans rely upon which remain integral to the agency's 
functional capabilities. We must make sure that these non-
homeland security missions and functions are not shortchanged.
    From the President's budget it appears that the designation 
of a program as either homeland security or non-homeland 
security is critical to the amount of funding a program 
receives. Yet it is unclear why or how the Department 
designated some as security-related and others as not.
    I am also concerned about the level of support being 
provided to the States. For example, States are facing critical 
challenges in making communications interoperable, yet SAFECOM, 
which provides public safety agencies the guidance to achieve 
interoperable communications does not have a specific funding 
level in the budget. States funding shortfalls to secure 
seaports, yet the budget does not include funding for port 
security grants.
    Formula grant funding, which protects smaller States such 
as Hawaii and Maine, has been reduced in the budget request by 
59 percent. The President's request eliminates minimum funding 
levels established by Congress to protect smaller States. This 
proposal threatens to harm all States by structurally changing 
homeland security grant funding according to a yet to be 
determined formula.
    Critical to the integration and smooth functioning of the 
Department is a new human resources system which is near 
completion. DHS along with the Department of Defense is part of 
the most massive transformation of government since 1947. I am 
concerned that this is occurring without sufficient funding to 
maintain these new personnel systems and without rationalizing 
agency missions to personnel needs. We must ensure that 
agencies have the funding necessary to manage their workforce 
effectively, including funding for overall management training, 
bonuses, and other recruitment and retention programs such as 
student loan repayment programs.
    As I review the President's budget submission, I am 
disturbed by what appears to be a trend in cuts to human 
capital and management functions. The department is requesting 
$133.5 million for a new human resource system, declaring it to 
be an investment in human capital while at the same time making 
cuts in human capital areas that are essential to the long-term 
security of our Nation.
    For example, the Science and Technology Directorate has cut 
its fiscal year 2005 funding for university and fellowship 
programs by $38.8 million. This could lead to a less prepared 
future workforce if fewer new people are being trained and 
recruited to these programs. It is important that DHS remain 
committed to developing and maintaining the most innovative and 
skilled technical staff possible. The United States should lead 
the world in the development of technology and science 
applications to thwart terrorism both domestically and 
internationally. I am concerned that budget cuts to a program 
like the university and fellowship programs may undermine our 
ability to recruit and train new Federal workers in these 
critical areas.
    Madam Chairman, thank you again for this hearing and thank 
you, Mr. Secretary, for being here.
    Chairman Collins. Thank you, Senator. Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thanks, Madam Chairman.
    Secretary Ridge, thank you for being here. From the 
announcement of your appointment to this day I continue to 
believe that you were the very best choice for this important 
position to defend America. I thank you for your public service 
and I thank you for your friendship.
    Mr. Secretary, having said that, this administration's 
speeches say that we are in a pitched battle in a war on 
terrorism, but the budget that has been submitted suggests that 
major military operations in this war on terrorism are winding 
down exactly when we need them the most.
    You have heard from my colleagues and I would like to make 
the same point which I think really goes to the heart of this 
issue. I am concerned this budget shortchanges our first line 
of defense, America's first responders in counties, cities, and 
communities. The budget calls for a 41 percent cut, nearly $1 
billion for State and local grants in the Office of Domestic 
Preparedness. FIRE Act grants are cut by 33 percent, from $746 
million appropriated for this year down to $500 million for 
fiscal year 2005. State and local training, exercises, and 
technical assistance funds face a projected 44 percent cut. 
While we appear to call for enhanced urban area security 
initiative funding, this budget reflects an 18 percent overall 
cut from the current year.
    I know that it is not your bailiwick but in the same budget 
the President virtually eliminates the COPS program, a 91 
percent cut from fiscal year 2003 funding level, and 85 percent 
cut from fiscal year 2004 funding level. In Illinois, during 
fiscal year 2003, COPS grants provided funding for 123 full-
time police officers. A cut of 91 percent would be 111 fewer 
police officers patrolling Illinois' neighborhoods and schools.
    Mr. Secretary, how can we win this war on terrorism with 
fewer soldiers, fewer brave men and women who are truly our 
first line of defense? Our political speeches will not save us. 
Our political promises will not protect us. We need to put our 
money where our security will be, on the front line. We cannot 
afford a hollow army in our war on terrorism.
    Second, I have focused on one issue more than any other in 
this whole area and it has been the interoperability of our 
computers, our information technology. Starting September 11 
and to this very moment I have tried to make this my issue 
because I believe it passionately, that unless and until the 
technology can communicate and the people are willing to share, 
we will not be as strong as we should be in our defense in the 
war on terrorism.
    I asked for a Manhattan Project in the creation of your 
department. The administration opposed it. They said it is 
unnecessary. I thought that we had an opportunity to do 
something unique, to bring together all of the agencies dealing 
with the defense and security of our Nation into one common 
effort, one stronger effort. In June of last year your CIO 
Steve Cooper announced that, and I quote from an article 
published in Computerworld, ``Steve Cooper, who is CIO at the 
U.S. Department of Homeland Security must untangle the mess of 
disparate networks' data standards of the 22 Federal agencies 
that merged to form the DHS. He said last week''--and this was 
in June of last year--``that a unified IT infrastructure will 
be completed within 18 to 24 months.''
    Mr. Secretary, we have to do better. You have the 
responsibility more than any other member of the cabinet to 
bring this together. I am concerned, too, when the President 
announces the creation by executive order of two new terrorist 
threat information gathering and analysis agencies, the 
Terrorist Threat Integration Center, not under your leadership, 
but under the CIA, and the Terrorist Screening Center, now part 
of the FBI. I am afraid that this will continue to perpetuate 
rivalries. It builds the stovepipes even higher.
    The obvious question is, are you losing the turf battle 
within your own administration to bring this information 
technology together? Our confidence in our intelligence 
community has been shaken by the litany of inaccuracies and 
misleading statements leading up to the invasion of Iraq. We 
are now in the midst of a review called by the President of the 
United States, a commission to investigate what went wrong in 
most of the substantial intelligence failures in modern history 
in the United States. We cannot allow the same thing to happen 
when it comes to our domestic security.
    You, more than any other person, have that responsibility 
to gather together these resources and forces to make certain 
that our intelligence makes America safer. I am looking forward 
to your testimony on the efforts that you are making.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Madam Chairman. I just want to 
again welcome Secretary Ridge to this Committee. Appreciate 
your public service and all that you have done in homeland 
security. My colleagues have covered some of the ground I 
wanted to cover, but Madam Chairman, I just want to thank you 
and also welcome Senator Lieberman back. He has been such a 
leader with regard to homeland security and it is so great to 
have you back here and have your mind on this. I look forward 
to hearing your thoughts as we progress in this hearing today.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. Mr. Secretary, we are pleased 
to have you here and we look forward to hearing your statement. 
You may proceed.

 TESTIMONY OF HON. TOM RIDGE,\1\ SECRETARY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Ridge. Thank you. Madam Chairman, Senator 
Lieberman, and Members of the Committee, I am grateful for the 
opportunity to appear before you today and present the 
President's budget and priorities for the Department of 
Homeland Security in the coming year.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Ridge appears in the 
Appendix on page 47.
---------------------------------------------------------------------------
    Before the tragic events of September 11, no single 
government entity had homeland security as its primary charge. 
With the creation of the Department of Homeland Security, and 
this Committee was there at its birth, that charge was given to 
us, 22 agencies, 180,000 employees brought together to pursue a 
single mission. That mission, to secure our Nation and citizens 
from the threats of terrorism and natural disaster, is one that 
does not change or lessen in importance with the passing of 
time. As several Senators have commented, the recent ricin 
scare serves as a difficult reminder that terrorism is a threat 
that we must confront each and every day with the same 
commitment and the same sense of urgency we all remember from 
the day our Nation was attacked 2 years ago.
    Now as we prepare to celebrate our one-year anniversary as 
a Department, it is the steadfast support of this Congress and 
the resources you have provided that have made it possible for 
us to not only carry out a vigorous and ambitious slate of 
security initiatives, but also to say and to join with you as 
you have commented today, to say with confidence that Americans 
are indeed safer today. I am also mindful of the fact that we 
still have more work to do.
    In a short time we have strengthened airline security, 
increased vigilance at our borders and ports, forged 
unprecedented partnerships across the private sector, State and 
local governments, improved information sharing, launched 
robust efforts to engage citizens in preparation efforts, and 
distributed funds and resources for our dedicated first 
responders. Of course, there is still more we can do and there 
is still more we must do. The President's budget request for 
the Department in fiscal year 2005 includes $40.2 billion in 
new resources, a 10 percent increase above the current year's 
level. This increase in funding will provide the resources we 
need to expand and improve existing projects and programs as 
well as build new barriers to terrorists who wish us harm.
    Let me touch briefly on a couple of areas where specific 
increases in our resources will help us continue to make 
progress at our borders, in our skies, on our waterways, and 
throughout the Nation. To further strengthen our border and 
port security, this budget includes a $411 million increase for 
Customs and Border Protection, Immigration and Customs 
Enforcement, and Coast Guard.
    This funding will support such innovative initiatives as 
the recently launched US-VISIT. This program is now operational 
at 115 airports and 14 seaports across the country to help 
ensure that our borders remain open to legitimate travel but 
closed to terrorists. That program has been very successful 
utilizing biometric technology to process more than 1 million 
legitimate passengers since the beginning of the year, and 
since the program began, we have matched 104 potential entrants 
against criminal watch lists. With additional funding of $340 
million this year, we will continue to expand US-VISIT to 
include land borders and additional seaports.
    However, we also recognize that potential enemies will not 
always arrive at a Customs checkpoint. That is why we have more 
than $64 million to enhance monitoring efforts along the border 
and between the ports. We have also requested an increase of 
$186 million to better enforce our immigration policies. We are 
also pushing our perimeter security outward, making sure that 
our borders are the last line of defense, not the first.
    The Container Security Initiative, for example, focuses on 
prescreening cargo before it even reaches our ports, and for 
that matter before it is even loaded onto the ships. This 
budget includes $25 million in additional funding to enhance 
our presence at existing ports and to begin the final phase of 
the Container Security Initiative, especially in high-risk 
areas around the world.
    Also the Coast Guard's budget will increase by 8 percent 
which includes funding for the continuation of the Integrated 
Deepwater System, and important new resources of more than $100 
million to implement the Maritime Transportation Security Act.
    One of the greatest areas of concern since September 11, of 
course, has been aviation security, and thus continues to be an 
area of high priority for Congress and for the administration 
and for this country. It is also a high priority within the 
budget with an increase of 20 percent this year. The 
Transportation Security Administration will receive an 
additional $890 million to continue to improve the quality and 
efficiency of the screening process. Also, considerable funds 
will be available to continue the research and deployment of 
air cargo screening technology as well as accelerate the 
development of technologies that can counter the threat of 
portable anti-aircraft missiles.
    While we have seen the havoc possible when aircraft are 
used as weapons, we have yet to experience the full impact, and 
I emphasize the full impact of a bioterror attack, and may we 
never have to do so. But we must be prepared. It is in that 
spirit that Secretary Tommy Thompson and I announced a $274 
million biosurveillance program initiative designed to protect 
the Nation against bioterrorism and to strengthen the public 
health infrastructure. The initiative will enhance ongoing 
surveillance programs for human health, hospitals, vaccines, 
food supply, State and local preparedness, and environmental 
monitoring and integrate them into one comprehensive system.
    In addition, one of our primary responsibilities is to 
gather intelligence and share information with the private 
sector and State and local officials as we work to secure the 
vast critical infrastructure upon which our economy and our way 
of life depends. That is why Information Analysis and 
Infrastructure Protection will receive in excess of $800 
million in this budget, an increase in funding that will enable 
us to carry out this important task.
    Finally, as I have said many times in the past, for the 
homeland to be secure, the hometown must be secure. That is why 
we continue to funnel resources to our State and local partners 
as well as to ensure that those who serve on the front lines of 
the new war, our firefighters, police, and medical personnel 
have everything they need. With that in mind, the total first 
responder funding in this budget adds another $3.5 billion to 
the more than $8 billion we have made available since March 1 
of last year.
    These are just some of our budget priorities over the 
coming year. Priorities that reflect the vast nature of our 
mission, whether safeguarding America from terrorist attack or 
providing aid in the face of natural disaster, our charge never 
changes and our course must never alter. To protect the people 
we serve is the greatest call of any government, and through 
the work of many, from those in Congress who allocate the 
resources to the governors and the mayors to those who work to 
fill gaps in their State and city security, and to a citizen 
who makes a preparedness kit, that call is being answered and 
embraced by the entire Nation.
    I would like to thank this Committee and Members for their 
continued support of the Department's mission and our goal to 
make America stronger, safer, and better prepared every single 
day. I look forward to continuing to build this Department as 
we work together to secure a stronger and safer America.
    Thank you.
    Chairman Collins. Thank you, Mr. Secretary. We will now 
begin a round of 7-minute questions and answers.
    Mr. Secretary, as a former governor you appreciate perhaps 
better than most people that State and local governments--
regardless of their size--are incurring additional costs in 
this new era of homeland security. For example, according to 
the Portland, Maine police chief the city of Portland spends an 
additional $5,000 each week in extra police costs alone 
whenever the national terrorism alert increases to Code Orange. 
We have also recently seen in Maine a threat to the Casco Bay 
Bridge, which closed down the bridge, diverted Coast Guard, 
police, and fire resources, to deal with that threat. So 
regardless of the population of a State, every State has 
homeland security vulnerabilities and needs.
    In previous testimony before this Committee and also the 
Appropriations Committee you indicated your recognition that 
every State needs a minimum amount of homeland security 
funding. Is that still your position?
    Secretary Ridge. Madam Chairman, I still believe that as we 
take a look at the ODP funding that is to be directed to the 
States and local governments, which also gives the Secretary, 
it gives me the flexibility to allocate more than just on 
population, that even under those circumstances there should be 
a minimum allocated to individual States because there is still 
basic support of infrastructure that they need to build and 
sustain in order to create a national response capability.
    Chairman Collins. This Committee held a hearing last year 
on the threat posed by agroterrorism, and I think that is 
another example where rural America faces a threat that is very 
difficult to deal with and is going to require increased 
coordination. That is another example of why we have to 
recognize that population does not automatically translate into 
vulnerabilities. Would you agree with that?
    Secretary Ridge. I would, Madam Chairman. One of the 
opportunities we have for the first time in the history of the 
Department, and I think for that matter for the first time 
since the country responded to September 11, is to build that 
infrastructure and allocate those monies according to strategic 
plans that governors have submitted.
    As part of the requirement that we imposed on our partners 
at the State level, we asked the governors of the States and 
the territories to submit strategic security plans to us. They 
were all due by January 31 of this year so we could take a look 
at what they perceive to be the threats, their vulnerabilities, 
their critical infrastructure. Your point is well taken. So we 
could make a determination not based exclusively on population 
as to how these dollars should be allocated, and I look forward 
to working with this Committee, and Congress frankly, to 
appropriately use the flexibility that the language gives the 
Secretary to target these resources consistent with the State 
plans that we are getting from our colleagues in State 
Government.
    Chairman Collins. I appreciate that assurance. As you know, 
the administration's budget does not appear to maintain the 
minimum for every State. It does give you some discretion and I 
have great faith in your exercise of that discretion. I also 
hope you will be Secretary forever. But in the event that does 
not happen, I am going to be working with my colleagues to 
clarify the language in the budget.
    With regard to first responders, let me also commend you on 
your recent reorganization within the Department to streamline 
the homeland security grant process. Both Senator Levin and I 
have worked with you to try to have a single number, one-stop 
shopping if you will, for communities to be able to find out 
more easily what funds are available. I do have two concerns 
however. One, as I mentioned and several of us did in our 
opening statements, the funding for the State homeland security 
grant program is cut by nearly $2 billion compared to what was 
appropriated last year.
    And second, I am still hearing complaints that the money is 
slow to get to first responders and to get to communities. I 
personally have concluded the Department is not at fault but 
that the States have not been as efficient in passing on the 
money as they should be. Could you comment on both of those 
issues, first of all the cut in the budget, and second, how can 
we ensure that the money is reaching those on the front lines 
as quickly as possible?
    Secretary Ridge. First of all, to put it in context, Madam 
Chairman, if just the dollars we have requested this year are 
appropriated by Congress, the amount of money to our first 
responders and State and local governments since fiscal year 
2001 will be about $15 billion. So as we took a look at what we 
have been able to do with regard to first responders and other 
needs within this country, the allocation of those resources 
were made part of the budget that I submitted to OMB. As you 
well recall, last year we submitted a request for assistance to 
the fire companies at $500 million and Congress raised it. We 
did shift considerable resources from the State funding formula 
to the Urban Area Security Initiative because I think it is 
generally understood and, I think generally preferred, that as 
much of these dollars be distributed based on threat and risk.
    Having said that, you and I also have had the conversation 
that we still need a certain amount going to the individual 
States to build up their own capacity to respond to the 
unpredictable nature of terrorism itself. But the bulk of 
dollars we believe should be distributed according to threat 
and risk. Now with the maturity and growth within the 
Department of the Information Analysis and Infrastructure 
Protection unit, with the strategic plans that are being 
developed by the States, and interaction between the Federal 
Government, the State Government and local governments I 
believe we can better target these resources.
    Chairman Collins. Finally, I want you to address the Coast 
Guard budget. Senator Lieberman and I wrote to OMB last fall to 
urge that the Deepwater Program, which is a very comprehensive 
program to upgrade the Coast Guard's assets since it has so 
many aging cutters and aircraft. We had proposed funding 
deepwater over a 10-year period, which in the long run would 
actually save money for the Federal Government, significant 
money, as well as allow the Coast Guard to upgrade its fleet 
far more quickly.
    This budget does include a commendable increase in the 
Coast Guard budget but it still funds the Deepwater Program 
over 22 years. Could you comment on what you think is the 
appropriate time for rebuilding the Coast Guard? We are 
concerned, given the Coast Guard's traditional missions and its 
vital homeland security missions that too many of its aircraft 
and cutters are being sidelined because of maintenance and 
aging problems.
    Secretary Ridge. Madam Chairman, first of all I think given 
the fiscal and security environment, the increase to the Coast 
Guard, nearly an 8 percent increase, again as we set priorities 
within the Department is precisely where we think we need to 
be. If the fiscal environment changes, security environment 
potentially changes, there may be some alterations to that. But 
again, we are quite aware of the fact that we have cutters that 
need repair and that their maintenance costs continue to 
increase because of the age of some of this equipment. But we 
are quite comfortable, given the nearly $500 million that we 
requested the Congress to appropriate, that we will continue to 
maintain the same level of service in both the homeland 
security and the non-homeland security areas.
    We also asked you for additional revenue for Rescue 21, 
which is a part of the international distress system. In this 
program, additional money for maritime safety and security 
teams, which you give. You give us another $100 million to 
assist us in dealing with the challenges of developing a 
maritime transportation strategy and to do the inspection of 
ports as well as vessels.
    So again, in the fiscal environment, in the security 
environment, we have asked for more. You have given us more and 
we will continue to maintain the same level of service both in 
homeland and non-homeland functions.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Mr. Secretary, let me just follow up, because Senator 
Collins and I do share this concern about port security and the 
funding of the Coast Guard. If I read this budget proposal of 
the administration correctly, with regard to the modernization 
of the Coast Guard fleet we are on a schedule where it will 
take 22 years to achieve that modernization. In the midst of 
the extraordinary increase in responsibilities that the Coast 
Guard has taken on ably with regard to homeland security, how 
can we justify not putting more into their fleet more quickly? 
To wait 22 years for them to achieve the level of modernization 
that they say they need, and which I believe they do need, 
seems much too long and really unrealistic and unacceptable.
    Secretary Ridge. Senator, the Congress has supported the 
levels that the administration has requested, and as you know, 
the Coast Guard is probably as effective an agency for taking 
every single cent that they get and maximizing its use. As we 
took a look at our strategic needs with regard to homeland 
security as well as fiscal concerns that legitimately should be 
imposed on all of government including the Department of 
Homeland Security, the balancing of the fiscal and security 
environment, we requested more money, additional funds for 
rescue, a little bit more money for the Deepwater Program, a 
few more additional dollars to implement the Maritime 
Transportation Security Act, and for fiscal year 2005 believe 
that is the appropriate balance.
    At sometime in the future, depending on circumstances, if 
there is an opportunity to significantly increase or accelerate 
the modernization of the fleet--but we are not going to do 
anything to jeopardize the safety of those who operate the 
fleet or to minimize or denigrate our mission--we believe these 
dollars substantially will get us through 2005, maintaining and 
in some areas increasing the capacity we have to provide Coast 
Guard services to support homeland security function but also 
increasing the capacity to deal with the non-homeland security 
requirements as well.
    Senator Lieberman. I hope that we in Congress, again on a 
bipartisan basis, can put more money into this Deepwater 
Program of the Coast Guard to modernize their fleet. Some of us 
on the Committee serve on the Armed Services Committee as well 
and while the amount of money put into this fleet modernization 
program for the Coast Guard is not insignificant, it truly does 
pale in comparison to the billions of dollars we are putting 
into other programs through the Department of Defense. I do 
think we have got to start to look at Coast Guard capital needs 
in the same way we do the services, so I hope we can turn that 
around here.
    I want to go now to bioterrorism. I noted that on January 
29, as you mentioned, Secretary Thompson and yourself held a 
press conference announcing this $274 million program to 
improve our Nation's bioterrorism surveillance capabilities. I 
believe that is critically important and I applaud you for 
that. As a matter of fact, in one of the hearings that I was 
privileged to chair of this Committee shortly after September 
11, this need was focused on.
    But I am concerned as I look at the budget details that it 
appears that a lot of the funding for this surveillance program 
that you have announced comes from cannibalizing existing 
bioterrorism programs, and the most unacceptable act of 
cannibalization to me is the cut, the $105 million cut, in 
bioterrorism preparedness grants to State and local health 
departments, which again are our first line of defense, first 
responders. The administration is also cutting another $39 
million in grants which were to have developed hospital surge 
capacity to respond to a bioterrorism attack. Those are the 
very programs that the Health and Human Services official in 
charge of terrorism preparedness had said should be increased. 
Indeed one public health official said that the 
administration's budget proposals on bioterrorism were like, 
``laying off firefighters while investing in new hoses and 
ladders.''
    So obviously I want to ask you who in the administration 
sets these priorities? Good move on bioterrorism surveillance 
but wrong place to get the money, by cutting these two other 
critically important programs.
    Secretary Ridge. First of all, Senator, I think if my 
recollection is correct a year or two ago the Congress acted 
quite aggressively and quite generously with bioterrorism 
grants to State and local governments. I do not recall the 
figure but I think it was an excess of $1.2 billion or $1.3 
billion. And there have been subsequent grants. Again, as you 
try to set priorities in terms of what the country needs to 
build a national response capacity, it was clearly the 
consensus view of Secretary Thompson and myself that we both 
had a responsibility to develop a comprehensive national system 
to make ourselves aware as early as possible about the presence 
of a biological agent.
    Now this, I think that dramatically improves the public 
health care system because regardless of whether the pathogen 
or that agent is brought to us by a terrorist or by Mother 
Nature, early detection is the best and most effective means of 
dealing with it.
    So again, respectfully disagreeing with the notion that 
anything has been cannibalized, there are still quite a few 
dollars out there in the pipeline, some of which have not even 
been drawn down, to my knowledge. But the best thing we can do 
for the public health community generally is to develop a 
system where we can detect these bioagents as early as possible 
and then using, if necessary, the strategic national stockpile 
or any of the other local or State means of responding to it, 
that will frankly make us not only safer but I think it makes 
us healthier as a country. It is an investment that I think in 
the long run is a good investment to combat terrorism, but it 
is also a huge strategic investment in public health as well.
    Senator Lieberman. I hope to continue our work to make sure 
we fund all sides. As you know, I have been concerned about the 
coordination and consolidation of the 12 different terrorism 
watch lists, and I am critical of the administration for taking 
so long to bring them together. I gather that they have now 
been consolidated. But we have heard stories, maybe fact, I ask 
you to respond to, that the terrorism watch list was not used, 
the consolidated list, during the recent Orange alert, and in 
that case, for instance, each flight manifest had to be checked 
with each terrorist watch list by the operations center at the 
Department of Homeland Security, which was time-consuming, 
labor intensive, and obviously risk prone.
    I wonder if you could respond both to the status of the 
consolidation of the terrorism watch lists and to why it was 
not used during the Orange alert, if the information I received 
is accurate that it was not?
    Secretary Ridge. Senator, the terrorist screening center is 
the place under the management of the FBI but leadership from 
TSA where we are consolidating the 12 watch lists. The physical 
consolidation or technological consolidation of all watch lists 
in one place will continue to take several months. So right now 
in the Terrorist Screening Center, as we are integrating the 
watch list, we literally have a very labor-intensive but still 
very important enhancement to domestic security, a labor-
intensive process where when we call upon the Terrorist 
Screening Center to identify a name, we have individuals in 
front of a screen running over the individual names. So we have 
access to and are using the database, but it is very labor-
intensive. I believe our goal is to get the names aggregated 
into a single database by midsummer.
    Senator Lieberman. So that has not happened yet? In other 
words, it is not----
    Secretary Ridge. It is something that they are working on 
24/7, Senator. Over the years, in order to get a particular 
name on a particular database, there were different thresholds 
of information that were required, or a different perspective 
depending on the agency as to whether or not the name should go 
on the database. Ultimately, I think we need to segregate those 
lists and prioritize those lists. But that integration 
challenge is one that we began back in December, and they are 
working on that piece every day.
    Having said that, we have access to that information and 
literally have had several hundred contacts, even with State 
and local law enforcement agents who are beginning to use the 
database. Again it was labor intensive but during the most 
recent occasion when we had to raise the threat alert, we were 
able to access the Terrorist Screening Center. The operations 
center did it, but it is very labor intensive. We believe that 
by midsummer or the end of summer it should be completely 
integrated.
    Senator Lieberman. I am sorry, my time is up, but did I 
understand correctly that is why each flight manifest would 
have had to have been checked against the terrorism watch 
lists, because it was still being put together in one database?
    Secretary Ridge. That is why it was so cumbersome. That is 
why it was so time-consuming. It is not that we ignored the 
reality. This is information we need to have access to and use. 
But right now it is still a very cumbersome and time-consuming 
process.
    Senator Lieberman. Thanks, Mr. Secretary. Thanks, Madam 
Chairman.
    Chairman Collins. Thank you. Senator Sununu.

              OPENING STATEMENT OF SENATOR SUNUNU

    Senator Sununu. Mr. Secretary, your budget includes $61 
million in the Science and Technology Directorate to deal with 
the threat of shoulder-fired or portable anti-aircraft missiles 
you mentioned in your testimony. Could you provide more detail 
about the status of that program and how the additional money 
will be used?
    Secretary Ridge. Actually we have already used some of the 
money that Congress appropriate to us in the 2004 budget. We 
have had a request for proposal out. Several companies bid. We 
have awarded a couple contracts to companies to go through that 
first phase of research that they need to see if we can come up 
with a countermeasure, a satisfactory countermeasure, to be 
applied to commercial aviation. There is a misnomer that we 
could simply take the countermeasures that we deploy on 
military aircraft and just attach them to passenger aircraft. 
That just will not work, for a variety of reasons.
    So the 2005 request is not to initiate the research. That 
has begun, and we anticipate that we will need those dollars to 
take us perhaps even to prototyping. So again, it is just a 
follow on to research that we have already commenced with 
regard to countermeasures.
    Senator Sununu. Is the funding available through your 
budget, the $61 million, sufficient to keep it on track to meet 
current milestones?
    Secretary Ridge. We believe it is. Plus you have given us--
again, the Science and Technology unit within Homeland Security 
has been in receipt of hundreds of millions of dollars from the 
Congress. And there is enough flexibility if we needed more or 
if we needed it sooner, we would be able to transfer dollars 
in. But we anticipate that that would be the cost for the next 
level of research, perhaps even prototyping.
    Senator Sununu. You talked a little bit about the US-VISIT 
program in your testimony. Has that technology initiative 
resulted in greater problems or bottlenecks? Has it reduced the 
bottlenecks? What kind of impact has it had on the human 
resources that you can deploy to deal with immigration or 
movement at ports of entry?
    Secretary Ridge. Senator, as you are well aware, the 
Congress of the United States literally for years and years had 
requested that, not only this administration but previous 
administrations develop a system where we can monitor people 
who come across our borders and then be able to confirm their 
departure once their visa expired. Congress was very generous 
in the 2003 budget and gave us several hundred million really 
to affect that.
    We added the requirement of a biometric identifier, feeling 
that while we could use just information to confirm arrivals 
and departures, we would be a lot better off if we were able to 
identify the individual who actually had the visa or the 
passport. To that end, we have the US-VISIT system which is 
basically a system based on two biometrics. One is facial 
recognition. The other are two finger scans. We have that 
deployed at 115 airports and I think 14 seaports. The consular 
offices around the country will have similar technology 
available to them all, and there is in excess of 200 of them, 
by October of this year so that when individuals get their 
visa, they will have their photograph and their finger scans 
taken there. When they come to our port of entry, we will be 
able to confirm the identity of the visa holder, ensuring that 
the individual that got the visa is the one that is offering it 
for entry into the United States.
    As you know, we are required by the Congress to come up 
with a system to deal with entry across the 50 largest land 
borders by the end of this year, and we are presently working 
on the technology that will enable us to affect that outcome as 
well.
    To date we have screened over 1 million people. We have 
turned away in excess of 100 at the border because of 
information we picked up, particularly from NCIC, the criminal 
watch list. As we go about integrating the terrorist screening 
center and the other databases that we have, this information 
will ultimately be available and tied into the US-VISIT system 
as well.
    Senator Sununu. In addition to the biometric technology, 
what are you doing on document verification, the ability to 
detect fraudulent passports, green cards or other immigration 
documentation?
    Secretary Ridge. First of all, the Congress has said that 
there is a requirement for entry by October of this year for 
there to be machine-readable passports prepared for our use at 
a port of entry. Continuing discussions with regard to the 
standards that should be applied to those kinds of documents 
are part of our conversations we are having with the European 
Union and elsewhere. I think one of the biggest challenges that 
we have, not just as a country, because the threat of terrorism 
and the notion that we need to ensure commercial shipping, 
commercial air travel, and it is a worldwide challenge that we 
have, is coming up with acceptable international standards 
based on biometrics. We are not quite there yet.
    For commercial aviation, the international commercial 
aviation organization, their only standard is a facial scan. I 
think, in talking to a lot of our colleagues around the world, 
while that is good technology, we do need to build some 
redundancy into that system. So we will be working with, again, 
colleagues in international aviation as well as governments 
around the world to see if they can come up with acceptable 
international standards. So that work continues. We have not 
reached a satisfactory international standard yet as far as I 
am concerned.
    Senator Sununu. Do you right now have the flexibility you 
need to continue to expand coverage to new ports of entry as 
our demographics change, as our economy changes and grows? Do 
you, within DHS, have the ability to bring new ports of entry 
into the system and to provide coverage in those expanded 
areas?
    Secretary Ridge. Frankly, just upgrading the personnel and 
equipment at existing ports of entry has been one of the 
primary tasks of the new Department, and I believe we have done 
that fairly well. When we go about talking, particularly with 
our colleagues in Canada and Mexico about creating new ports of 
entry so we can deal with the enhanced security that we want at 
our borders and the facilitation of commerce, that will require 
a significant capital investment from all of the governments. 
One of the things we are reviewing with our friends in Canada 
and Mexico, if there were to be infrastructure improvements 
along the border, where would they be? How much would they 
cost? And frankly, who would absorb the cost?
    Senator Sununu. I am speaking specifically, and I was not 
clear in the question, on seaports, airports, points of cargo, 
and passenger entry and exit in the domestic United States that 
could be receiving passengers and cargo from all over the 
world.
    Secretary Ridge. Yes, again whether it is aviation security 
or commercial shipping security, the decision has been made, 
and I think Congress generally embraces it, that you never want 
to rely on a single means of security. That you need to layer 
in your security measures. You never want the opportunity for 
there to be a single point of failure.
    So to that end, when it comes to commercial shipping, as 
you know, we began with a container security initiative. There 
is a targeting program based on the 24-hour requirement to 
provide those manifests. We board 100 percent of the high 
interest vessels. We have non-intrusive inspection technology 
both at ports abroad and in the United States. So we layer in 
multiple preventive measures both in aviation and in port 
security. I hope that answers your question.
    Senator Sununu. It does in part. What I am getting at is 
the fact that reluctance or inability or lack of flexibility to 
distribute additional personnel can effectively prevent a 
seaport or an airport from growing to accept passenger transit, 
new immigration. There are some specific samples that I will be 
happy to share with your staff.
    Secretary Ridge. Thank you, Senator.
    Senator Sununu. Thank you very much, Madam Chairman.
    Chairman Collins. Thank you. Senator Levin.
    Senator Levin. Thank you, Madam Chairman.
    I want to start by asking you about the allocation system 
for homeland security grants. Two major programs here are the 
State Homeland Security Grant Program and the Urban Area 
Security Initiative when it comes to first responder grants. It 
strikes me that those allocations to those first responders, to 
the greatest degree possible, at least logically, ought to be 
based on vulnerabilities and threats. Every State has 
vulnerabilities, but there are great variations between States 
and localities on those vulnerabilities.
    So my first question to you is, is it the administration's 
position that we should legislate formulas for allocating those 
monies that go to the States and local governments and for any 
State minimums? Or should that be left to the Department to 
adopt criteria that we would then be able to look at which 
would be transparent, but nonetheless would be basically 
departmentally determined rather than legislatively determined?
    Secretary Ridge. I believe, Senator, it would be our 
preference as embodied in the language for both of those grant 
programs, that the flexibility be given to the Department. 
Understanding the political reality of whether or not it can be 
accomplished remains to be seen, but we would certainly want to 
address, obviously in a transparent way, the establishment of 
that criteria if it was to be done internally within Homeland 
Security.
    Senator Levin. So that your position is that you would 
rather not have them legislatively prescribed?
    Secretary Ridge. That is correct, Senator. As both of the 
pools of ODP dollars suggest, we do want to take into 
consideration population. But we also need to take into 
consideration the critical infrastructure. We need to take into 
consideration threats and vulnerabilities.
    It is pretty difficult to come up with a mathematical 
formula that can deal specifically with that assessment. It is 
for that reason, particularly with regard to the State and 
local dollars through the Office for Domestic Preparedness that 
we have suggested for the first time in 2005, and I have said 
in response to Senator Collins' question that a minimum of 
those dollars go out to every State, but that we take a look at 
the State plans that have been submitted, we take advantage of 
the work that the States and our Department has done in 
identifying critical infrastructure.
    Port Huron was an extraordinary example where we had a 
small community that had critical infrastructure around it and 
in it and yet I do not believe they qualified, either place, 
for any additional dollars. So if we had that flexibility 
vested in the Department I think we could address the concerns 
of some of those communities easier.
    Senator Levin. Is it the administration's position that the 
minimum should be set by the Department or by Congress?
    Secretary Ridge. I think it would be, again, our preference 
that once we take a look at the state-wide plans and see what 
common threads and needs are there, that we would set it. But 
again, we welcome the notion that the Congress would work with 
us in order to set that criteria internally.
    Senator Levin. I would like to go back to reverse 
inspections. We have been urging a system of reverse 
inspections where the inspection of people and cargo be done on 
the other side of the bridges and tunnels because it is too 
late once that bridge or tunnel is damaged or destroyed to 
inspect the cargo. We have legislated that there be at least a 
couple of efforts made at testing reverse inspections. What is 
the status of that pilot program?
    Secretary Ridge. Senator, the Smart Border Accord we have 
with Canada across the board has been successfully and almost 
completely implemented. There are still one or two areas of 
disagreement and reverse inspection is one of them. But with 
the change in administration, we have not lost our focus on 
that issue and our desire to convince our Canadian allies it 
would serve our mutual interest for both security and commerce 
to locate areas on either side where the inspections could take 
place before these vehicles move through tunnels or across 
bridges.
    Senator Levin. Can you, for the record, give us the status 
of those pilot programs which we legislated in 2003?
    Secretary Ridge. Yes, sir.
    Senator Levin. On the intelligence analysis coordination 
question and the letter which I referred to which went to four 
different people including yourself about the question of how 
do these various entities that are analyzing threats relate to 
each other. I guess the real question is this, we have a 
Department of Homeland Security, we have an FBI, we have a CIA. 
Internally to those we have Terrorist Threat Integration 
Center. In your Department we have an Information Analysis and 
Infrastructure Protection Directorate. We have a 
counterterrorism division in the FBI. And we have a CIA 
counterterrorist center as well as the TTIC or Terrorist Threat 
Integration Center.
    Who has the primary responsibility for analyzing foreign 
intelligence, No. 1? No. 2, is that laid out in writing? And 
No. 3, can we get an answer to our letter--Senator Collins' and 
my letter?
    Secretary Ridge. Senator, you have been very patient. You 
have asked me about this before.
    Senator Levin. Uncharacteristic of me, by the way, I want 
you to know.
    Secretary Ridge. You have been very patient with this 
Secretary, and I am grateful for that because I am mindful of 
the date that was at the top of the letter. Having served as a 
former Member of Congress all I can say is I am mindful of the 
date, and I know it is several months later.
    First of all, you ought to know that there is a coordinated 
response that is being prepared. The Department of Homeland 
Security has offered its views, and it is my understanding that 
response should be coming to you shortly, within the next 
couple of weeks.
    Senator Levin. I just had one additional question here, but 
I will pass to it. Thank you.
    Chairman Collins. Thank you. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman.
    Mr. Secretary, I have some questions concerning the human 
resource system. You have requested $102.5 million for a new 
human resource system. As there are no final regulations in 
place detailing the new system, what assumptions did you make 
in requesting this amount? What information or precedent did 
you rely upon to determine that the request was sufficient to 
implement the system?
    Secretary Ridge. First of all, Senator, you should know 
that the regulations are near completion and we would 
anticipate the publication within the next several weeks. As 
you know, that kicks in a 30-day comment period and certain 
discussions with the men and women and their representatives 
from organized labor ensue after those regulations are 
promulgated.
    The $100-plus million you refer to is a request based upon 
our desire to develop a performance-based pay system. It is 
also predicated on the notion that it is going to take some 
time in order to develop this system and to train managers, on 
the system, and how to apply it effectively. So the request for 
those dollars is basically to design the system, train 
management within the Department to utilize it appropriately 
and effectively, and then to begin a pilot program beginning 
toward the end of the year in fiscal year 2005.
    One of the challenges we have, and it came up in our 
discussions with representatives from organized labor, of which 
we have had several discussions as we have developed the 
system, is that there is really no prototype within government. 
We have never been down that path before. We have been down 
that path in the private sector.
    But it is something that the administration feels strongly 
about. I certainly do. I would like to have a performance-based 
system. But we need to design one, and we need to train people 
to use it effectively. There are some legitimate concerns that 
were raised by the representatives of the men and women that 
work in the Department of Homeland Security, and we thought one 
of the best ways to address some of their concerns was to make 
sure that we implemented the approach over a period of time, 
not just through the initial regulation. Because it would not 
have been satisfactory to them, we would not have designed a 
satisfactory system. It is not the way to go about implementing 
a broad-based system. So that is the reason for the additional 
dollars.
    Senator Akaka. Does the $31 million earmarked for training 
extend beyond training managers for the implementation of a new 
pay-for-performance system?
    Secretary Ridge. I am sorry, I did not quite understand, 
Senator.
    Senator Akaka. Does the $31 million earmarked for training 
extend beyond training managers for the implementation of a new 
pay-for-performance system?
    Secretary Ridge. I think it is not just managers that have 
to understand the system, but I think the employees have a 
right to understand what is expected of them and how their 
performance would be recognized and rewarded. So again, 
primarily the training is for those who would use the system, 
but I think there is a broader, department-wide educational 
campaign that has to be undertaken once we design the system.
    Senator Akaka. Forty-two million, Mr. Secretary, has been 
earmarked for the design and implementation of the new human 
resources system and for the administration and staffing of the 
new labor management and appeal process. My question is, does 
the funding for the new human resource system include funding 
for the Department's recruitment and retention efforts 
including the use of student loan repayment?
    Secretary Ridge. I think within the Department's personnel 
budget there are adequate and standard resources we would use 
to recruit and retain people. But, Senator, it does not include 
any loan repayment mechanism.
    Senator Akaka. Under a pay-for-performance system, you have 
requested $2.5 million. How many employees will this cover? 
Within this amount can you provide the anticipated pay increase 
good performers will receive? And what information did you rely 
upon in making this request?
    Secretary Ridge. Senator, I believe we are looking at a 
small pool of employees in order to test the system for almost 
a year, and the additional $2.5 million was to be allocated for 
that purpose and, frankly, to make up for any differences that 
we might experience, any losses we might experience so that 
there will be adequate money for a pay-for-performance 
protocol. Again, we tried to lay this out, Senator, over the 
next couple of years, because it has not been done in 
government successfully to date. I am not sure it has been 
tried successfully. I know there has always been an interest in 
getting it done. But it is going to take us a couple years to 
design, train, educate, prototype, and then apply.
    Senator Akaka. I wanted to ask before my time is up, of the 
$300 million requested for the human capital fund to meet your 
pay-for-performance goals, how much do you anticipate using?
    Secretary Ridge. Senator, most of those dollars are to 
effect the change within the system, and it is difficult--we 
think we will need it all.
    Senator Akaka. Finally, information technology funding 
calls for $226 million. I understand that the Bureau of 
Immigration and Customs Enforcement has had some trouble 
consolidating its IT systems to perform such functions as 
travel, budget, and case tracking. Will this $226 million help 
BICE with this issue? If not, are other funding sources being 
made available to BICE to streamline and consolidate its IT 
system?
    Secretary Ridge. Senator, your question highlights one of 
the major technology challenges that the Department has, 
because as you know, some of the pieces of Homeland Security 
came out of legacy departments such as Commerce and Justice, 
and some of their information, the data that they use is 
integrated into their systems. So to divest this data and bring 
it into a consolidated system with the Department is going to 
take time. That applies to Immigration and Customs Enforcement. 
It applies to Citizenship and Immigration Services. It applies 
to several other units within the Department. Again, those 
dollars will help us, basically from a technological point of 
view, pull that information, pull those databases out of the 
legacy agencies so we can consolidate it into the Department of 
Homeland Security.
    Senator Akaka. Thank you. Madam Chairman, my time has 
expired.
    Chairman Collins. Thank you. Senator Durbin.
    Senator Durbin. Mr. Secretary, I am a member of the Senate 
Intelligence Committee, and the experience we are going through 
now because of Dr. Kay's report is causing us to really take an 
assessment as to whether or not our intelligence gathering 
leading to the invasion of Iraq failed. The precipitate event, 
I suppose, was Dr. Kay's report. Fortunately, and I give you 
credit, the President and the administration, we have not had a 
sequel to September 11, 2001. God forbid that should ever 
occur, we will all be gathering in earnest in emergency to 
determine where we failed, what we could have done better.
    I would like to address one or two areas that continue to 
trouble me. I made reference to them in my opening remarks. I 
do not know how we can make America safer if our computers do 
not speak the same language, if they are not communicating with 
one another, and if we disperse responsibility among different 
bureaucracies. I felt and I think others did as well, that your 
arrival and your commitment to this personally, the development 
of a new agency meant that a new day would dawn.
    But the information that we have received suggests that the 
bureaucratic battles continue. Some things are very difficult 
for me to understand. In your last appropriation bill I asked 
for a report when it came to information technology by December 
15. It is almost 2 months beyond that. I would commend you to 
note that is part of your appropriation, to give us a report on 
watch lists and coordination of information technology.
    But let me get right down to the bottom line, if I can. It 
looks to me like you are losing the turf battle within this 
administration. I think your legislative mandate is so 
imminently clear, and I will read it from the bill. To access, 
receive, and analyze law enforcement information, intelligence 
information, other information of agencies of Federal 
Government, to integrate such information in order to identify 
and assess the nature and scope of the terrorist threats to 
America. I thought that put you in the driver's seat.
    Now let us take a look at the watch list issue. The watch 
list, for some reason, has been delegated to the FBI. In an 
answer to a question from, I believe it was Senator Lieberman, 
you said that you expected their effort to be fully operational 
by midsummer for watch list integration. When the TSC was 
established it was supposed to be operational by December 1.
    I also want to say, not taking anything away from Bob 
Mueller and the fine people at the FBI, there are some 
questions as to whether or not this was the right place to put 
this watch list effort. Here we have the Inspector General's 
report of December of last year talking about the FBI and the 
FBI's efforts to improve sharing of intelligence. Listen to 
what the Inspector General of the Department of Justice said: 
``The process for disseminating intelligence was ad hoc and 
communicated orally from manager to staff. One CIA detailee at 
FBI characterized the informal process as disorganized, noting 
that information does not flow smoothly within the FBI, let 
alone externally. In the 8 months the CIA detailee had been at 
the FBI, the detailee had not received a single CIA 
intelligence report. The detailee said, `information goes into 
a black hole when it comes into this building.' That is the 
most frightening thing I can think of, 2\1/2\ years after 
September 11, that we are still dealing with this. Where the 
President is creating by executive order agencies that compete 
with your legislative responsibility, agencies which frankly I 
think should be integrated under DHS, but instead we find in 
other parts of the Federal Government.''
    Are we making progress? It looks like you are wading 
through a sea of molasses here trying to get to change and 
reform. I believe in you. I have from the beginning and I still 
do. I do not like what I am seeing.
    I would ask for your comment.
    Secretary Ridge. Senator, hopefully I can allay some 
concerns, perhaps not to your complete satisfaction but let me 
do my best.
    First of all, the Congress has directed that our 
Information Analysis and Infrastructure Protection unit be 
supplied with adequate resources to map the threat against the 
vulnerability, and then the responsibility of the Department is 
to do something about it. What you should know is that part of 
the fusion operation that we do in the information analysis 
department and unit within Homeland Security is to take 
information from--we have access to the information generated 
by the entire intelligence community. The decision to raise the 
threat level over the holidays was because of the partnership 
and the access to information generated by the broader 
intelligence community, in this instance particularly by the 
CIA, but also other sources.
    We believe that the Terrorist Threat Integration Center and 
the Terrorist Screening Centers add value to our effort to fuse 
all information from sources, whether it is horizontal across 
the Federal Government, whether it is vertical up from the 
State and locals. We are partners in the Terrorist Screening 
Center. We have analysts in the Terrorist Threat Integration 
Center. We have access to give and to make requirements on any 
of the information-gathering agencies in the intelligence 
community so that if we get a report we are empowered by 
Congress to go back to that agency and ask for additional 
information.
    So, within Homeland Security our information analysis unit 
is designed by the direction of Congress to fuse information 
from all sources, internationally, we get some information from 
time to time, from our own intelligence community, and from the 
State and locals, and that is precisely what we are doing.
    Senator Durbin. Let me ask you, I only have a few seconds 
left and this is such a broad question and, frankly, I do not 
know if you will have an opportunity to give the complete 
answer you would like to give, and maybe you would like to 
reflect on it.
    As you step back, as we all step back and look at the 
intelligence community in America and what happened before the 
invasion of Iraq, where we have the director of the CIA making 
a speech saying in defense of his agency, we are being 
mischaracterized. We gave good information based on what we 
knew.
    Now that you have to deal with intelligence, decide on 
alerts, decide what is truly a threat to this country, do you 
feel that there are fundamental weaknesses within our 
intelligence community which need to be addressed, beyond the 
partisanship here, Democrats and Republicans, that we need to 
address as a Nation, as you reflect on what happened prior to 
the invasion of Iraq?
    Secretary Ridge. Senator, I appreciate the way the question 
was asked, because we all have an interest in making sure that 
when information becomes available, regardless of the source, 
that is relevant to Federal action, whether it is Homeland 
Security, the Department of Defense, whatever, that it is 
actionable, that it be shared immediately so action can be 
taken.
    I think one of the big challenges that we have as a 
government, and I think for that matter as a society is to 
understand completely how difficult information gathering and 
analysis is in the context of combating terrorism. We from time 
to time apply, I think Cold War standards of certainty to 
information that are not necessarily applicable to the kinds of 
information we can glean from multiple sources that help us 
combat international terrorism. There is no country, there is 
not necessarily a central point where we can get the 
information. Unlike the Cold War, we do not necessarily have 
satellites identifying for us troop movements, and ship 
movements. It is much more difficult to get human intelligence 
inserted into an organization like al Qaeda.
    So the challenges we have, is to do exactly what you want 
us to do, get as much information as we can, analyze it as 
quickly as we possibly can. But even in that analysis there is 
as much art as there is science. There is probably not a day 
that does not go by, certainly not a week that does not go by, 
that we just took a look at a threat or a series of threats to 
the United States without considering a lot of other factors, 
without considering those factors you might be inclined to 
raise the threat level. We are very judicious about it. We will 
only do it when we think it is credible and corroborated. It is 
the notion of identifying what sources are credible, given the 
unique challenge of gathering intelligence in this war against 
global terrorism, and the unique challenge we have to 
corroborate that information that makes it so difficult for all 
of us to understand what precisely is going on.
    I have enormous admiration for anyone, regardless of the 
administration, Republican or Democrat, who has taken upon 
themselves as life's work to gather and analyze information and 
then reach conclusions that you need to act on it in one way or 
the other. We are getting better at it. We are getting smarter 
every single day.
    To your point, Senator, you have raised this question with 
me before with regard to the integration of technology. I would 
like to either come up or have Steve Cooper come up and sit 
down and show you what we are doing internally. I know you have 
questioned the 18 to 24 months. I appreciate the milestones 
that were set and the date certain within the calendar, but 
some things will get done only when--they just take time to do 
and I would like to come up and show you the way ahead in 
regards to the technology integration within the Department.
    Senator Durbin. Thank you, Mr. Secretary. Thank you, Madam 
Chairman.
    Chairman Collins. Senator Pryor.
    Senator Pryor. Thank you, Madam Chairman.
    Again, thank you for being here this morning, Secretary 
Ridge. I appreciate the task you have ahead of you. You may 
recall, during your confirmation process that I pretty much 
gave you a challenge to look at this new agency, the Department 
of Homeland Security, and try to make it into a model agency, 
try to make it one that really was the best that the Federal 
Government had to offer in terms of efficiency and 
effectiveness and teamwork. Understanding that you inherited a 
lot of people from other agencies and other existing 
institutions, and also you brought in--some are absolutely a 
new creation.
    So I would like to hear your comments on how you think the 
agency is running, and how it is doing in this challenge that I 
have laid out, and other Members of the Committee have laid 
out, to be a model Federal Government agency. I would just like 
to hear your comments, and then if you could even grade 
yourself on the job you have done up to this point.
    Secretary Ridge. If you give anybody the opportunity to 
make up the test, take the test, grade the test, I would tell 
you it is easy. It is easier. If it only were that easy.
    Senator one of the most significant challenges with this 
whole enterprise is that basically with the direction, and 
support of Congress, I might add, we are dealing with an 
organization that has within it a couple of startups, a few 
mergers, and an acquisition or two as well as a divestiture, to 
put it in private sector terms. So we have got a lot of things 
going on. One of the biggest challenges has been to maintain 
the focus day to day at the borders, at the airports, with the 
ports, to maintain that operational effectiveness and actually 
improve it at the same time we are integrating personnel 
systems, information systems, fiscal systems, procurement 
systems.
    I would tell you that my sense is that we have accelerated 
that process rather dramatically the past 3 or 4 months. The 
acceleration initially was slow simply because putting together 
a leadership team requiring background checks, Senate 
confirmation took a while, and very appropriately; it should. 
But now that we have got the leadership team in place, the 
vision is clear, the mission is clear, our performance goals 
have been articulated and that from day one on March 1 we 
started doing things differently at our ports of entry.
    Where you had at one time three agencies, three different 
Federal employees wearing three different uniforms and three 
different chains of command, immediately we consolidated that 
so they were all working with one chain of command and in the 
future--they have now and in the future are going to be cross-
trained to do all of those tasks. So then we have more people 
to do more things at ports of entry which means when we have a 
surge need, that there are more people coming into the airport, 
people coming into the border, and we can put more people in 
order to meet the surge.
    You will see innovations like this throughout. The US-VISIT 
system is something that Congress had mandated we get done. No 
one thought we could get it done, but we were able to achieve 
it. Working on the human resource management system, it is a 
real challenge. Congress gave us the opportunity to do it, but 
we want to do it right, so we spent a lot of time--we have had 
several meetings around the country talking to employees. We 
certainly talked to their leadership. That rule will be 
promulgated probably by the end of this month.
    You have given us the resources to make dramatic changes at 
the airports. We have leaned forward to begin the process of 
protecting America and address our concern about port security 
in ports around the world. As we speak today, we have 
inspectors at Shanghai and Hong Kong and Rotterdam and 
elsewhere who begin that targeting process, who begin 
inspecting the cargo. Sometimes it is a physical inspection. 
Sometimes it is where they open it. Other times it is with non-
intrusive technology. So while we try to make operational 
improvements, we have also tried to pull our resources together 
to begin the process of integrating all the enabling management 
functions.
    You will get a more complete report card on or about March 
1. I think we have made great progress but I will be the first 
one to admit in terms of operational efficiency we have done 
well. We are going to do better. In terms of integrating some 
of the enabling management personnel that we have and functions 
that we have, we have done well. We are going to do better. But 
I think the pace has accelerated considerably the last 3 or 4 
months.
    You notice I avoid giving myself a grade. It would be too 
self-serving.
    Senator Pryor. I did notice that.
    Secretary Ridge. I wish I could have done that in college.
    Senator Pryor. I am not going to press on that. I must tell 
you that my background as being Arkansas's Attorney General I 
am very connected to the law enforcement community in my State 
and when I talk to folks in the law enforcement community, 
mayors, people, firefighters, etc., one complaint I still hear 
is the slowness of money coming out of the Federal Government 
down to the local level to first responders. In fact today 
there is a story on Fox News online about that and they quote a 
number of people that are out and around the country doing 
different things, and that is still a complaint. So I have 
heard that in my offices. It sounds like nationally people are 
hearing that, and I would like to hear your response on that.
    Secretary Ridge. We are hearing it as well, Senator. First 
of all, let me assure you that the dollars that you 
appropriated to the Department in 2002, 2003, and 2004, 
particularly the 2002 and 2003 dollars, they are ready to be 
drawn down. We have done our job. You told us to get it ready 
for distribution within 45 days and we were ready.
    Having said that, looking at our partners, and they are our 
partners at the State and local level, we know that depending 
on the State there are different reasons for the delay. We are 
going to take it upon ourselves with our partners to try to 
break the logjam and then come up with a standard means of 
distribution so that neither you nor your colleagues on the 
Committee or other Members of Congress, and more importantly, 
the first responders will ever say again it is taking too long 
to get those dollars to us.
    Clearly they are right. We have $8 billion to $9 billion to 
be distributed. Some have not been distributed from 2002 yet. 
We still have almost half from 2003, if not more, let alone the 
2004 dollars. So there is a problem there. We are ready to make 
the distribution.
    So we are going to go back and take a look at the States 
that have done a good job of distributing the funds and see 
what practices they employ, and then sit down--frankly, I am 
going to sit down with the governors when they come to town in 
a couple weeks to talk about the distribution problem because 
we all want those dollars, once appropriated, to get out to 
where the governors and the mayors and the first responders 
have prioritized their needs. The sooner, the better.
    Senator Pryor. Madam Chairman, let me ask one follow-up 
question on that, if I may. I have been looking at the 
President's budget and I know that you have sat in that chair 
right there over the last 12 months and you have reiterated 
time and again the importance of having local law enforcement 
on board. You just mentioned again it is teamwork, you are 
partners, etc. But how can we expect preparedness at the local 
level when in the President's budget we are cutting the dollars 
available to local law enforcement agencies and first 
responders by about $800 million?
    Secretary Ridge. I think, first of all, I want to try to 
put again into context, every year we are going to make an 
assessment as to what the priorities of the Department of 
Homeland Security are. I believe the level of funding requested 
by the President this year is fairly close to the level of 
funding the President requested last year and then Congress 
added several hundred million dollars to that request. You will 
note that we have maintained the same level of funding, knowing 
full well that if we get this level as requested that there 
would have been nearly $15 billion out to the States and to the 
locals since 2001, and most of that in the past 3 years. Our 
focus, as we maintain the same level of funding we requested 
last year as this year is to not only worry about inputs but 
outcomes.
    We take a look at 2005 as being a critical year as we take 
a look at the homeland security strategies submitted by the 
States, taking a look at their needs so we can better 
distribute the dollars. I think Congress will hold the 
Department accountable for where the dollars have gone. We 
accept that responsibility. We maintain the same strong level 
of funding, $3.5 billion, but this year for purposes of the 
budget a little more money for the Coast Guard, more money for 
biosurveillance, more money for the human resource plan, were 
priorities that were funded. And again, maintaining a $3.5 
billion fund for first responders was considered appropriate 
under the fiscal and security circumstances with which we 
operate.
    Senator Pryor. Thank you, Madam Chairman.
    Chairman Collins. Thank you.
    Mr. Secretary, we are going to do a very brief final round 
of questions of only 3 minutes each in the attempt to get you 
out of here as near to 12 noon as possible. We appreciate your 
time this morning.
    In my remaining few minutes I want to bring up two problems 
that my home State has experienced. I bring them up not only to 
bring them to your personal attention in the hope of securing a 
commitment that your staff will work with us to resolve them, 
but also because I believe they illustrate some of the broader 
issues that the Department is confronting as it seeks to 
strengthen our homeland security.
    The first involves a community in far northern Maine, in 
northwestern Maine, that has a very difficult situation because 
the houses are on the American side of the border and all the 
services that this community uses are on the Canadian side of 
the border. So to go to church, to avail themselves of medical 
care, and to go to the grocery store, these American citizens 
need to cross over to the Canadian side.
    Prior to the tightening of security, the Department had a 
program called the Form One program that allowed these citizens 
to get certified by our government, if you will, and to be able 
to cross at will. So to go to Catholic mass on Sundays, for 
example, was a very easy undertaking.
    Now, however, there is a gate at that border which is 
unmanned on Sundays, and the result is that these citizens are 
essentially locked in on the American side of the border. They 
would have to travel over 100 miles through woods roads in 
order to cross at a different border crossing. This creates a 
real hardship for their lives, and it has also led to some of 
the citizens in frustration crossing illegally and then fines 
being imposed on them. It is just a very difficult situation 
given that all the services are on the Canadian side.
    I would note, the Canadians still have a system that allows 
these citizens to enter Canada without any problem whatsoever. 
The problem is they cannot get back. They cannot cross back 
over to their homes on the American side.
    The Department in response to my request did institute some 
limited Saturday hours which were helpful, but that has not 
solved the problem on Sundays or evenings, and it is a real 
problem. There are not a lot of people involved but it has 
completely changed their lives, and it illustrates the problems 
between free flow of people and commerce who are not going to 
do our country any harm versus the need to have tighter control 
over our borders.
    The second incident involves a recent sweep by Immigration 
and Border Patrol officials in Portland, Maine. This sweep 
resulted in 10 arrests, and obviously we want the Department to 
vigorously enforce our immigration laws. There were some people 
who were there illegally and there were those who were there on 
expired visas. But we also had many serious complaints from 
community leaders that the way in which this sweep was 
conducted created a great deal of fear among immigrants who are 
here legally. The agents went to a homeless shelter, they 
targeted Latino, Asian, and African restaurants, which then 
experienced a dramatic drop in business throughout this period.
    It just seems to me that there has to be a better way for 
the Department to pursue its very important responsibilities 
and to make sure that people are not here illegally. I do feel 
strongly about that. But to work more with the community 
involved to make sure that these sweeps are conducted in a way 
that is respectful of people and do not target small businesses 
in a way that ends up hurting their business.
    So I would ask that you work with me and the Department 
work with me on those two issues. Neither of them are easy 
issues and I think both of them illustrate the challenges and 
the problems that we face in this new September 11 world.
    Secretary Ridge. Senator, it would be a pleasure to work 
with you on both of those. They are illustrative of the 
challenges, not just the Department or your particular 
community face, but the entire country, and that is the balance 
between aggressive enforcement of the law, be it for law 
enforcement purposes or counterterrorism, anti-terrorism 
purposes and a dramatic change in how we have historically done 
business. I suspect that community that has been affected 
adversely by the gate across what had heretofore been just a 
normal path of entry and exit is probably mirrored across the 
entire northern border. So I think, obviously, we would be 
pleased to work with you on that. It is that balance between 
security and convenience and commerce that sometimes needs to 
be applied on ad hoc cases, one at a time. So obviously we will 
be pleased to work with you on that.
    I would say, hopefully, if men, women, and children are in 
this country legally they have nothing to fear and should not 
fear. We need to maintain ourselves as that open, welcoming 
country that we have been for 200 years. How they conducted 
business on that particular day or days I am not familiar, 
whether or not notice was given to the local communities, 
whether or not they engaged local law enforcement to assist 
them, I cannot answer that question. But I suspect if we put 
some of my folks down with yours we will be able to get to the 
answers.
    We do not want to discourage the Border Patrol from doing 
their job. We also want to encourage them to do it in a way 
that is consistent with the standards of service of the Border 
Patrol and that is respecting the rights of individuals, be 
they legal or illegal, and the rights of the community. So 
again, it is obviously a situation that you and I have to 
explore and if there is a need for a remedy or a change in 
approach, then I would be pleased to discuss it with you.
    Chairman Collins. Thank you very much, Mr. Secretary. 
Senator Lieberman.
    Senator Lieberman. Thank you, Madam Chairman.
    Mr. Secretary, this last round I would like to give you 
three questions and you can answer them to the extent that time 
allows, although I hope they lend themselves to rather brief 
answers. The first is on the question of interoperability. As 
we know, on September 11 there is some substantial reason to 
believe that some of those first responders we lost at the 
Trade Center certainly were lost because of a failure to 
communicate with their colleagues, brothers and sisters in law 
enforcement.
    This capacity to communicate with one another is lagging in 
most parts of the country today. I saw one cost estimate that 
said it could cost $18 billion to create real interoperable 
communications. The President's budget this year appears to cut 
the minimal funding that was targeted to interoperability in 
the past budgets through FEMA and the Department of Justice. So 
my question is, what role the administration sees in making 
interoperability a reality among local law enforcement?
    Second, we talked before about the terrorism watch list. My 
initial thought--and I am not alone in this dream here--was 
that we would eventually have a coordinated watch list that 
would, using your terms, not only be horizontal but vertical 
and that any local police officer stopping somebody for a 
traffic violation, just as they punch into the crime 
information system now, would be able to punch in similarly to 
a terrorism watch list, and might apprehend somebody who was on 
that list. I wanted to ask you whether you share that goal and 
how we are doing in achieving it.
    Then the final, on the TSA--again, we cannot do everything 
right away but with the enemies that we have who are going to 
strike at our vulnerabilities, I think one of our roles here is 
to be persistent in pressuring each other to limit and close 
those vulnerabilities. In the TSA budget, which now looks to be 
over $5 billion, I find only $24 million assigned to what I 
would call non-aviation modes like rail, bus, trucks, etc. What 
is the priority that you can place or you think the budget 
should place on the non-aviation transportation modes which 
themselves, unfortunately, might be vulnerable targets for 
terrorists?
    Secretary Ridge. Madam Chairman, if I could have a few 
extra minutes to respond, as I think I would like to answer the 
Senator's questions.
    Chairman Collins. Absolutely.
    Secretary Ridge. First of all, Senator, the whole question 
of interoperability, communications, is very much at the heart 
of equipping our first responders to do the best job they 
possibly can at the time of an incident. Their primary job is 
to save lives, and until we come up with an interoperable 
communication system, we will not be able to maximize their 
personal effort.
    To that end, SAFECOM, that acronym has been used in a 
couple different places, but safe communications, there are 
three pilot projects, there are several pilot projects out 
right now and that is one of the areas that the science and 
technology unit is examining for the purpose of determining the 
standards we need in order to create such a system.
    I would tell you that as an eligible drawdown on some of 
these dollars from the Office for Domestic Preparedness there 
is technology on the market that basically can be used to 
secure basic information from different sources on different 
frequencies, translate it, and then ship it out. That is only a 
temporary measure.
    So first, we have pilots working. Second, there is some 
technology on the market that can assist with this. It is not 
the final answer. And third, the whole notion of standards is 
part of the Science and Technology's mission.
    With regard to vertical information sharing, the notion 
that once we have the watch list integrated into one database, 
and we will be there, and I believe, by the end of the summer, 
rather than individuals sitting in front of screens looking at 
their individual watch lists, the notion that it should be 
shared with the State and locals is one that we all embrace.
    Senator you should know that most of the inquiries to date 
to the terrorist screening center have been from State and 
local law enforcement. Again, it just shows you what a powerful 
tool information is when you get it in the hands of people who 
can take action with it. So again, we are going to do better at 
the integration and we are looking for ways within the 
Department of Homeland Security on how we can better share that 
information via the Internet and elsewhere with State and 
locals under other circumstances as well. So that process is 
moving along rather swiftly and I think effectively.
    Senator Lieberman. Can I stop you? I apologize. In other 
words, what you said, the No. 1 customer, if you will, or the 
source of questions to the terrorism watch list now, are from 
State and local law enforcement?
    Secretary Ridge. Not the No. 1, but the first couple 
inquiries we had within----
    Senator Lieberman. They picked somebody up and they 
wondered whether there was something to worry about?
    Secretary Ridge. Correct. Now ultimately that integrated 
database will be connected into the airports, the TSA, and the 
ports of entry. But that is precisely what happened. They are 
anxious to help, Senator. You know that.
    Senator Lieberman. They sure are.
    Secretary Ridge. These State and local folks, 650,000 
strong, they want to help. And one of the best things we can do 
to enlist their support is to get them the information they can 
act on.
    Third, Congress has provided, you are right, the bulk of 
the funding for TSA as it relates to aviation security. But 
separate and apart from that, when it comes to other forms of 
transportation, shipping, you have got the Coast Guard, and as 
we take a look at rail and trucking, etc., you have given us 
quite a few dollars in the infrastructure protection budget to 
take a look at technologies that can apply to improving 
security. It is part of our responsibility as well to work with 
the agencies that also oversee these other modes of 
transportation, the Federal Highway Administration and the 
like, to work on improving safety and adding more security to 
those venues as well.
    Senator Lieberman. Thanks, Mr. Secretary. Obviously we have 
come a long way and we have got a long way to go and we are 
going to get there quickest if we go there together, so I look 
forward to it. Thanks, Madam Chairman.
    Secretary Ridge. Thank you, Senator.
    Chairman Collins. Thank you. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman.
    I have three quick questions. One that follows up on the 
Chairman's concern on immigration. I understand that BICE is 
reorganizing the special agent in charge of field office 
structure. My question is, how does the budget request cover 
this reorganization?
    My second question has to do with cuts in science and 
technology in the university and fellowship programs within 
Science and Technology Directorate, a cut of $38.8 million. My 
question is, why were these programs cut? Because I feel such 
programs certainly develops the innovative and skilled 
technical staff that we need.
    Finally, on geospatial information databases. I have long 
had an interest in using geospatial information to enhance our 
response to disasters. A comprehensive and layered national 
defense database of geospatial information could be an 
essential element in developing a comprehensive response to any 
disaster. Indeed, such information was useful in response to 
the September 11 disaster in New York. My question is, does the 
Department have a strategy for acquiring such a capability? If 
so, what is the timeframe for its development?
    Secretary Ridge. First of all, Senator, with regard to 
seeking additional dollars to reorganize the Bureau of 
Immigration and Customs Enforcement, we think the Congress has 
been generous in supporting the basic function of BICE. You 
gave us an increase this year and as far as we are concerned, 
it is our responsibility to reorganize it, to make it as 
efficient as possible and we should not be knocking on your 
door to get additional money to do it. You have already been 
pretty generous.
    Second, the science and technology question that you asked, 
I did not hear, Senator, the specific reduction in funding that 
you were concerned about. I know it was in S&T but I did not 
quite pick that up. Could you kindly repeat that?
    Senator Akaka. Yes. The budget proposes a cut of $38.8 
million in the university and fellowship programs within the 
Science and Technology Directorate. My question, why were these 
programs cut and what do you think about whether it affects the 
Department's ability to develop and maintain the most 
innovative and skilled technical staff possible?
    Secretary Ridge. Senator, as you know we have begun both a 
program to identify and work with centers of excellence--those 
are academic institutions around the country--and the scholars 
and fellows program. Again, as we took a look internally as to 
what we thought our priorities should be for fiscal year 2005 
we thought we could maintain the existing program with regard 
to scholars and fellows and maintain the existing number of 
centers for academic excellence, but for the fiscal year 2005 
there were other higher priorities and chose to fund those. But 
make no mistake about it, over the long term, scholars and 
fellows for the science and technology unit will continue to be 
a significant priority. It is just not the highest priority 
this year.
    In the academic centers of excellence which to date, 
Senator, have ended up being grants given to universities that 
consolidate their applications, the first one was given out 
West but actually involved five universities all around the 
country. So again, in 2005, set priorities, we will maintain 
the existing fellows and scholars program. We will maintain--I 
think we are going to have four to six academic centers of 
excellence. But the priorities for 2005 said, maintain and grow 
them later.
    Senator Akaka. My final question was on geospatial 
information database and asking for a timeframe for its 
development.
    Secretary Ridge. Senator, I know that in discussing the 
geospatial component of both our operations center and talking 
with people in FEMA about it and others that there is 
significant interest within the Department. I cannot speak 
specifically whether or not it has been reduced to a strategy, 
and I would welcome the opportunity to address that by virtue 
of a letter to you here in the next week or so.
    Senator Akaka. Thank you very much, Madam Chairman.
    Chairman Collins. Thank you, Senator.
    Mr. Secretary, thank you not only for appearing this 
morning but for the outstanding leadership that you have given 
the Department during its first year in operation. We very much 
appreciate your leadership and your dedication to public 
service.
    Secretary Ridge. Thank you, Senator. Thank you very much.
    Chairman Collins. This hearing record will remain open for 
15 days for the submission of additional materials. I want to 
thank my staff and the Minority staff for their hard work in 
putting together this hearing which is now adjourned. Thank 
you.
    [Whereupon, at 12:10 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T2688.007

[GRAPHIC] [TIFF OMITTED] T2688.008

[GRAPHIC] [TIFF OMITTED] T2688.009

[GRAPHIC] [TIFF OMITTED] T2688.010

[GRAPHIC] [TIFF OMITTED] T2688.011

[GRAPHIC] [TIFF OMITTED] T2688.012

[GRAPHIC] [TIFF OMITTED] T2688.013

[GRAPHIC] [TIFF OMITTED] T2688.014

[GRAPHIC] [TIFF OMITTED] T2688.015

[GRAPHIC] [TIFF OMITTED] T2688.016

[GRAPHIC] [TIFF OMITTED] T2688.017

[GRAPHIC] [TIFF OMITTED] T2688.018

[GRAPHIC] [TIFF OMITTED] T2688.019

[GRAPHIC] [TIFF OMITTED] T2688.020

[GRAPHIC] [TIFF OMITTED] T2688.021

[GRAPHIC] [TIFF OMITTED] T2688.022

[GRAPHIC] [TIFF OMITTED] T2688.023

[GRAPHIC] [TIFF OMITTED] T2688.024

[GRAPHIC] [TIFF OMITTED] T2688.025

[GRAPHIC] [TIFF OMITTED] T2688.026

[GRAPHIC] [TIFF OMITTED] T2688.027

[GRAPHIC] [TIFF OMITTED] T2688.028

[GRAPHIC] [TIFF OMITTED] T2688.029

[GRAPHIC] [TIFF OMITTED] T2688.030

[GRAPHIC] [TIFF OMITTED] T2688.031

[GRAPHIC] [TIFF OMITTED] T2688.032

[GRAPHIC] [TIFF OMITTED] T2688.033

[GRAPHIC] [TIFF OMITTED] T2688.034

[GRAPHIC] [TIFF OMITTED] T2688.035

[GRAPHIC] [TIFF OMITTED] T2688.036

[GRAPHIC] [TIFF OMITTED] T2688.037

[GRAPHIC] [TIFF OMITTED] T2688.038

[GRAPHIC] [TIFF OMITTED] T2688.039

[GRAPHIC] [TIFF OMITTED] T2688.040

[GRAPHIC] [TIFF OMITTED] T2688.041

[GRAPHIC] [TIFF OMITTED] T2688.042

[GRAPHIC] [TIFF OMITTED] T2688.043

[GRAPHIC] [TIFF OMITTED] T2688.044

[GRAPHIC] [TIFF OMITTED] T2688.045

[GRAPHIC] [TIFF OMITTED] T2688.046

[GRAPHIC] [TIFF OMITTED] T2688.047

[GRAPHIC] [TIFF OMITTED] T2688.048

[GRAPHIC] [TIFF OMITTED] T2688.049

[GRAPHIC] [TIFF OMITTED] T2688.050

[GRAPHIC] [TIFF OMITTED] T2688.051

[GRAPHIC] [TIFF OMITTED] T2688.052

[GRAPHIC] [TIFF OMITTED] T2688.053

[GRAPHIC] [TIFF OMITTED] T2688.054

[GRAPHIC] [TIFF OMITTED] T2688.055

[GRAPHIC] [TIFF OMITTED] T2688.056

[GRAPHIC] [TIFF OMITTED] T2688.057

[GRAPHIC] [TIFF OMITTED] T2688.058

[GRAPHIC] [TIFF OMITTED] T2688.059

[GRAPHIC] [TIFF OMITTED] T2688.060

[GRAPHIC] [TIFF OMITTED] T2688.061

[GRAPHIC] [TIFF OMITTED] T2688.062

[GRAPHIC] [TIFF OMITTED] T2688.063

[GRAPHIC] [TIFF OMITTED] T2688.064

[GRAPHIC] [TIFF OMITTED] T2688.065

[GRAPHIC] [TIFF OMITTED] T2688.066

[GRAPHIC] [TIFF OMITTED] T2688.067

[GRAPHIC] [TIFF OMITTED] T2688.068

[GRAPHIC] [TIFF OMITTED] T2688.069

[GRAPHIC] [TIFF OMITTED] T2688.070

[GRAPHIC] [TIFF OMITTED] T2688.071

[GRAPHIC] [TIFF OMITTED] T2688.072

[GRAPHIC] [TIFF OMITTED] T2688.073

[GRAPHIC] [TIFF OMITTED] T2688.074

[GRAPHIC] [TIFF OMITTED] T2688.075

[GRAPHIC] [TIFF OMITTED] T2688.076

[GRAPHIC] [TIFF OMITTED] T2688.077

[GRAPHIC] [TIFF OMITTED] T2688.078

[GRAPHIC] [TIFF OMITTED] T2688.079

[GRAPHIC] [TIFF OMITTED] T2688.080

[GRAPHIC] [TIFF OMITTED] T2688.081

[GRAPHIC] [TIFF OMITTED] T2688.082

[GRAPHIC] [TIFF OMITTED] T2688.083

[GRAPHIC] [TIFF OMITTED] T2688.084

[GRAPHIC] [TIFF OMITTED] T2688.085

[GRAPHIC] [TIFF OMITTED] T2688.086

[GRAPHIC] [TIFF OMITTED] T2688.087

[GRAPHIC] [TIFF OMITTED] T2688.088

[GRAPHIC] [TIFF OMITTED] T2688.089

[GRAPHIC] [TIFF OMITTED] T2688.090

[GRAPHIC] [TIFF OMITTED] T2688.091

[GRAPHIC] [TIFF OMITTED] T2688.092

[GRAPHIC] [TIFF OMITTED] T2688.093

[GRAPHIC] [TIFF OMITTED] T2688.094

[GRAPHIC] [TIFF OMITTED] T2688.095

[GRAPHIC] [TIFF OMITTED] T2688.096

[GRAPHIC] [TIFF OMITTED] T2688.097

[GRAPHIC] [TIFF OMITTED] T2688.098

[GRAPHIC] [TIFF OMITTED] T2688.099

[GRAPHIC] [TIFF OMITTED] T2688.100

[GRAPHIC] [TIFF OMITTED] T2688.101

[GRAPHIC] [TIFF OMITTED] T2688.102

[GRAPHIC] [TIFF OMITTED] T2688.103

[GRAPHIC] [TIFF OMITTED] T2688.104

[GRAPHIC] [TIFF OMITTED] T2688.105

[GRAPHIC] [TIFF OMITTED] T2688.106

[GRAPHIC] [TIFF OMITTED] T2688.107

[GRAPHIC] [TIFF OMITTED] T2688.108

[GRAPHIC] [TIFF OMITTED] T2688.109

[GRAPHIC] [TIFF OMITTED] T2688.110

[GRAPHIC] [TIFF OMITTED] T2688.111

[GRAPHIC] [TIFF OMITTED] T2688.112

[GRAPHIC] [TIFF OMITTED] T2688.113

[GRAPHIC] [TIFF OMITTED] T2688.114

[GRAPHIC] [TIFF OMITTED] T2688.115

[GRAPHIC] [TIFF OMITTED] T2688.116

[GRAPHIC] [TIFF OMITTED] T2688.117

[GRAPHIC] [TIFF OMITTED] T2688.118

[GRAPHIC] [TIFF OMITTED] T2688.119

[GRAPHIC] [TIFF OMITTED] T2688.120

[GRAPHIC] [TIFF OMITTED] T2688.121

[GRAPHIC] [TIFF OMITTED] T2688.122

[GRAPHIC] [TIFF OMITTED] T2688.123

[GRAPHIC] [TIFF OMITTED] T2688.124

[GRAPHIC] [TIFF OMITTED] T2688.125

[GRAPHIC] [TIFF OMITTED] T2688.126

[GRAPHIC] [TIFF OMITTED] T2688.127

[GRAPHIC] [TIFF OMITTED] T2688.128

[GRAPHIC] [TIFF OMITTED] T2688.129

[GRAPHIC] [TIFF OMITTED] T2688.130

[GRAPHIC] [TIFF OMITTED] T2688.131

[GRAPHIC] [TIFF OMITTED] T2688.132

[GRAPHIC] [TIFF OMITTED] T2688.133

[GRAPHIC] [TIFF OMITTED] T2688.134

[GRAPHIC] [TIFF OMITTED] T2688.135

                                 <all>

</pre></body></html>
